<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2019</title>
<body><pre>[Senate Hearing 115-]
[From the U.S. Government Publishing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2019

                              ----------                              


                       WEDNESDAY, APRIL 11, 2018

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:01 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Richard C. Shelby (chairman) 
presiding.
    Present: Senators Shelby, Collins, Murkowski, Blunt, Moran, 
Daines, Durbin, Reed, and Tester.

                         DEPARTMENT OF DEFENSE

                         Missile Defense Agency

STATEMENT OF LIEUTENANT GENERAL SAMUEL A. GREAVES, 
            DIRECTOR


             opening statement of senator richard c. shelby


    Senator Shelby. The committee will come to order. Good 
morning. We're pleased today to welcome Lieutenant General 
Samuel Greaves, the Director of the Missile Defense Agency, for 
a review of MDA's budget request and an update on critical 
missile defense programs.
    The fiscal year 2019 budget request for the Missile Defense 
Agency (MDA) is $9.9 billion, a decrease of more than $1.5 
billion from amounts appropriated for fiscal year 2018.
    Last year, under the leadership of Chairman Cochran, this 
committee led the charge in providing additional resources to 
the Missile Defense Agency to address the increasing missile 
threat to our homeland. Today we will carefully review the 
budget request to understand the impact of the proposed funding 
reductions.
    The President said that we are committed to expanding and 
improving our state-of-the-art missile defense. I hope so. 
General Dunford, the Chairman of the Joint Chiefs of Staff, has 
warned us that we need to be concerned about ensuring that our 
ballistic missile defense capability keeps pace with the 
increasing threat in the world.
    General Greaves, in your written testimony, you say that, 
and I quote, ``nearly all of our adversaries are concerned with 
U.S. missile defenses and have devised various means to 
complicate missile defense operations,'' your words.
    For example, our adversaries are developing missile defense 
countermeasures, hypersonic glide vehicles, and long-range 
nuclear-armed missiles that are capable of posing a direct 
threat to the U.S. I hope today that you will share with this 
committee your best advice and your concern on how we can 
advance the state of our missile defenses against this evolving 
and increasing threat that we face.
    I look forward to your testimony and the question-and-
answer period.
    [The statement follows:]
            Prepared Statement of Senator Richard C. Shelby
    Good morning, the Subcommittee will come to order. I am pleased to 
welcome Lieutenant General Samuel Greaves, the Director of the Missile 
Defense Agency for a review of MDA's budget request and an update on 
critical missile defense programs.
    The fiscal year 2019 budget request for the Missile Defense Agency 
is $9.9 billion, a decrease of more than $1.5 billion from amounts 
appropriated for fiscal year 2018.
    Last year, under the leadership of Chairman Cochran, this Committee 
led the charge in providing additional resources to the Missile Defense 
Agency to address the increasing missile threat to our homeland.
    We will carefully review the budget request to understand the 
impact of the proposed funding reductions.
    The President has said that we are committed to expanding and 
improving our state-of-the-art missile defense system. General Dunford, 
the Chairman of the Joint Chiefs of Staff, has warned us that we need 
to be concerned about ensuring that our ballistic missile defense 
capability keeps pace with the increasing threat.
    General Greaves, in your written testimony you say that ``nearly 
all of our adversaries are concerned with U.S. missile defenses and 
have devised various means to complicate missile defense operations.''
    For example, our adversaries are developing missile defense 
countermeasures, hypersonic glide vehicles and long-range, nuclear-
armed missiles that are capable of posing a direct threat to the United 
States. I hope that you will share with this Committee your best advice 
on how we can advance the state of our missile defenses against this 
evolving and increasing threat.
    Now I turn to the Vice Chairman, Senator Durbin, for his opening 
remarks.
    Senator Shelby. Senator Durbin.

                 STATEMENT OF SENATOR RICHARD J. DURBIN

    Senator Durbin. Thank you very much, Chairman Shelby. This 
is our first meeting without our friend from Mississippi, 
Senator Thad Cochran, who will be missed. He was an 
extraordinary leader on this committee and in the United States 
Senate.
    But I am pleased to recognize my colleague and friend of 
many years, Senator Shelby of Alabama, who now chairs the 
Appropriations Committee and this Defense Subcommittee. He 
jumped right into his duties this morning. Senator Shelby, as 
well as Senator Reed and I, had a breakfast briefing with 
Secretary Mattis and General Dunford, then hurried back to 
Capitol Hill for this important testimony on our missile 
defense program.
    General Greaves, thank you for being here. This is your 
first time before the Defense Subcommittee as Director of the 
Missile Defense Agency, which plays a critical role in 
defending our Nation from many threats. Your job is a 
challenge, it's technically demanding, but we know you're up to 
that, and your leadership is vital to ensuring the Missile 
Defense Agency continues to protect America.
    We face a number of threats, as you know better than anyone 
in the room: at the top of the list currently, North Korea, 
with its pace of testing and progress of its nuclear-armed ICBM 
(intercontinental ballistic missile); Iran also increasing its 
regional ballistic missile capability. Though we have an 
agreement related to the development of nuclear warheads, we 
are still mindful of the fact that Iran is one of the major 
threats to stability in the region and in the world.
    Emerging technological threats from China and Russia, such 
as hypersonic weapons mentioned by the chairman, are new 
challenges. We want to make certain that our allies in the 
Middle East, like Israel, continue to have a missile defense 
program for their safety and the safety of our interests in 
that region.
    Finally, importance of our commitment to the security of 
Europe with Aegis Ashore sites in Romania and Poland cannot be 
overstated. These systems are no threat to Russia, but they do 
serve as a message that America is committed to the security of 
NATO (North Atlantic Treaty Organization) at a time when that 
message is often under attack and garbled in translation.
    Last year, Congress increased MDA funding by 45 percent 
over the budget request. That is a massive increase in 
expenditure. And we are going to see dramatic increases of 
about 30 percent across the board in the Department of Defense 
in this fiscal year and the next fiscal year.
    Because of these increases, this subcommittee and the 
American people need to know that their taxpayer dollars are 
being spent well and not wasted, that we are fixing priorities 
on things that are the most important for the security of our 
Nation. Secretary Mattis echoed that same concern with a memo 
to the Department on March 26 entitled, ``Be Peerless Stewards 
of Taxpayers' Dollars''. Secretary Mattis is a plain-spoken 
man, and those words are very clear to all of us.
    The recent budget deal increased defense spending by $165 
billion over 2 years. That increase, that delta alone, is more 
than twice the annual defense budget of Russia. Just our 
increase is more than twice the annual budget of Russia.
    Because of these large increases in the military budget, we 
already hear calls for more ambitious new missile defense 
programs, like an East Coast missile defense site, accelerated 
plans for directed energy weapons.
    General Greaves, the subcommittee needs to know what you 
think of these things. We need to know that you're using your 
judgment, listening carefully to suggestions, but using the 
reality of technology and the reality of defense in terms of 
ultimate decisions.
    Finally, I would caution that we must be realistic about 
what missile defense can do and cannot do. Missile defense does 
add to our security, it provides deterrence value, but we have 
to be clear that North Korea's testing track record is mixed, 
and more fundamentally, we have to appreciate that a new 
technology or interceptor is not going to resolve North Korea's 
ongoing threat to the region and to the world. For that, we 
need a strategy and a capable team which includes the best 
national defense in the world, with our Department of Defense, 
but includes even more.
    While we talk about dramatic increases in defense, the 
State Department had its budget cut last year, and under this 
year's budget deal, received no increase. It's true that 
military capability has an effect on diplomacy, the ``Big 
Stick'' theory of Teddy Roosevelt still applies, but we still 
need to have active efforts at dialogue and diplomacy. What we 
do in this area can impact regional stability in many other 
areas.
    Thank you for coming here today. We look forward to your 
testimony.
    Senator Shelby. General Greaves, your written testimony 
will be made part of the record in its entirety. You can 
proceed as you wish. We welcome you again to the committee.

       SUMMARY STATEMENT OF LIEUTENANT GENERAL SAMUEL A. GREAVES

    General Greaves. Thank you, Mr. Chairman.
    Chairman Shelby, Vice Chairman Durbin, distinguished 
members of the subcommittee, thank you for this opportunity to 
testify on the Missile Defense Agency's budget for fiscal year 
2019.
    I would first like to express our sincere appreciation to 
this committee for its support of the Department's above 
threshold reprogramming request in September of 2017 and the 
fiscal year 2018 budget amendment, which provided reprogramming 
approval and emergency funding to enhance the Nation's missile 
defeat and defense capabilities. I'm also very pleased to 
report that we are executing these funds with the utmost 
urgency, and it's something I track weekly, if not daily.
    I would also like to thank the thousands of men and women 
across government and industry who work tirelessly every day 
across the globe in support of our Nation's Ballistic Missile 
Defense System. I truly believe they remain our asymmetric 
advantage.
    Over the past year, we've been given a clear and 
unambiguous message from the President that we are committed to 
expanding and improving the state-of-the-art missile defense 
system. So in my mind, the time for delays, more studies, and 
objections, that time is over. As I continue to say it, the 
threat has voted and continues to visibly vote through the 
demonstration of its capabilities.
    Last summer, I laid out three Missile Defense Agency 
priorities to help guide our actions, our behavior, and program 
planning: first, we will continue to focus on increasing system 
reliability to build warfighter confidence; second, we will 
increase engagement capability and capacity; and third, we will 
address the advanced threat.
    I can confidently tell you that today the current Ballistic 
Missile Defense System meets today's threat. However, as the 
threat increases in both number and lethality, we need to 
ensure that our systems remain reliable, remain secure from 
cybersecurity threats, and that the Nation's ballistic missile 
defense capability and capacity keep pace with that threat.
    We currently have 44 emplaced ground-based interceptors for 
homeland defense and plan, with your support, to expand that 
fleet to 64 by 2023. In addition, improvements in sensor 
coverage to include the Long Range Discrimination Radar in 
Clear, Alaska, and the addition of a homeland defense radar in 
Hawaii, if approved, and planning for a homeland defense radar 
in the Pacific, as well as advanced discrimination 
improvements, will enable the United States to improve 
protection of the homeland. The Agency will also continue the 
Redesigned Kill Vehicle development efforts, enhance the 
stockpile reliability program, and expand the GBI (Ground-based 
interceptors) battle space.
    Integrated space and terrestrial sensors for cueing, 
tracking, discriminating, and targeting ballistic missile 
threats are critical to improving missile defense architecture 
and its robustness. This budget will continue to fund the 
Space-based Kill Assessment demonstration capability, which 
delivers the capabilities that confirm intercepts for improved 
defense of the homeland.
    We are also continuing concept definition studies for 
space-based missile defense tracking sensors. If pursued, space 
sensors will be able to detect and track both traditional as 
well as emerging, think hypersonic, threats as part of the 
ballistic missile defense architecture.
    The budget request will also increase the number of THAAD 
(Terminal High Altitude Area Defense) interceptors to improve 
regional missile defenses for the protection of our forward-
deployed forces, allies, and partners.
    We will continue to install the Aegis Ballistic Missile, 
Defense Weapon System on Aegis ships and deliver Standard 
Missile-3 Block IB interceptors.
    We are also supporting the European Phased Adaptive 
Approach, providing coverage and protection of NATO European 
territory, populations, and forces against the increasing 
ballistic missile threat from the Middle East.
    Our request will support continued integration of the SM-3 
Block IIA missile, which is a co-development effort with Japan 
into the Aegis BMD Weapon System.
    Currently, there is an operational Aegis Ashore site 
located in Romania. And while we have experienced delays in the 
military construction portion of the Aegis Ashore effort in 
Poland, we remain steadfastly committed to delivery of that 
capability in support of EPAA (European Phased Adaptive 
Approach) Phase 3 as soon as possible.
    Finally, this budget request will continue the development 
of breakthrough technologies for integration into the BMDS 
(Ballistic Missile Defense System), including discrimination 
improvements, Multi-Object Kill Vehicle technology, hypersonic 
defense technology, and exploring higher power laser technology 
and interceptors that have potential use against threat 
missiles in the boost phase of flight.
    Additionally, as we evaluate the elements of the missile 
defense system, we will actively pursue developing elements 
that have multi-mission and department-wide utility and 
leverage those systems, such as the F-35, which likely has 
sensor, communication, and shooter capabilities in support of 
the Ballistic Missile Defense System.
    Mr. Chairman and members of the subcommittee, I look 
forward to your questions. Thank you.
    [The statement follows:]
       Prepared Statement of Lieutenant General Samuel A. Greaves
    Good morning, Chairman Shelby, Vice Chairman Durbin, distinguished 
Members of the subcommittee. I appreciate this opportunity to testify 
before you today on one of the President's highest defense priorities 
for fiscal year 2019.
    As I say it, the ballistic missile threat has voted and continues 
to vote today. Given this reality, the Administration has stated that 
we must take steps to respond quickly to counter the ballistic missile 
and nuclear weapons developed by our adversaries that are intended to 
kill Americans, and our allies and friends. To meet this pressing 
requirement, the President signed into law emergency appropriations 
requested in the fiscal year 2018 Budget Amendment that provided 
emergency funding to enhance the Nation's missile defense and defeat 
capabilities. I want to express my appreciation to the Congress for its 
support in this process. I am pleased to report that the Missile 
Defense Agency (MDA) is executing these funds with the utmost urgency. 
The President and the Department of Defense leadership have been very 
clear in outlining their priorities.
    President Donald J. Trump stated on August 23, 2017: ``We are 
committed to expanding and improving a state of the art missile defense 
system to shoot down missiles in flight. And we are getting better and 
better at it. It's actually incredible what's taking place. We will 
develop better surveillance and long-strike capabilities to prevent our 
enemies from launching them in the first place.''
    Secretary of Defense James Mattis, on September 20, 2017, warned 
the Department that ``. . .if we fail to adapt at the speed of 
relevance, our forces will lose. . . .''
    The Chairman of the Joint Chiefs of Staff, General Joseph Dunford, 
Jr., USMC, on October 3, 2017 elaborated on the proximity and extent of 
the threat facing the United States when he stated: ``Based on the 
current capacity of the North Korean threat, both the type and the 
amount of missiles that they possess, we can protect Hawaii today 
against an ICBM. We can protect the continental United States against 
an ICBM... As the capacity of the threat increases--that is the size, 
not just the lethality, of missiles that they may possess--we need to 
be concerned about ensuring that our ballistic missile defense 
capability keeps pace with that threat. We do think an increase is 
warranted.''
    And Ms. Ellen Lord, the Under Secretary of Defense for Acquisition 
and Sustainment, emphasized the importance of moving quickly through 
our processes to get the best and most advanced capabilities out into 
the field in a timely manner when she stated: ``It's all about 
velocity. We are trying to get stuff downrange quickly.''
    The MDA mission is ``to develop and deploy a layered Ballistic 
Missile Defense System to defend the United States, its deployed 
forces, allies, and friends from ballistic missile attacks of all 
ranges and in all phases of flight.'' The MDA budget request of $9.9 
billion for fiscal year 2019 will continue the development, rigorous 
testing and fielding of reliable, increasingly capable, and state-of-
the-art defenses for the United States, our deployed forces, and the 
forces and territories of our allies and partners against current and 
projected missile threats. This request will maintain current homeland 
and regional missile defense assets and increase capability and 
capacity to keep pace with advancing threats. We will continue to 
collaborate closely with the Warfighter and support the current and 
future needs of the Combatant Commanders with the development, testing, 
deployment, and integration of interceptors, sensors, and the command, 
control, battle management and communications (C2BMC) system into a 
multi-domain battle management and command and control system for the 
Ballistic Missile Defense System (BMDS).
    MDA's fiscal year 2019 program plan aligns with the December 2017 
National Security Strategy \1\ and the 2018 National Defense Strategy 
\2\ as well as the fiscal year 2017, fiscal year 2018 and fiscal year 
2019 President's Budgets that lay out the path forward we are taking 
for missile defense. Last summer, I laid out three Agency priorities, 
support the Department's defense strategy, and guide the execution of 
missile defense program activities.
---------------------------------------------------------------------------
    \1\ ``The United States is deploying a layered missile defense 
system focused on North Korea and Iran to defend our homeland against 
missile attacks.'' National Security Strategy of the United States of 
America, December 2017, p. 8.
    \2\ ``Investments will focus on layered missile defenses and 
disruptive capabilities for both theater missile threats and North 
Korean ballistic missile threats.'' Summary of the 2018 National 
Defense Strategy of the United States of America: Sharpening the 
American Military's Competitive Edge, p. 6.
---------------------------------------------------------------------------
  --First, we will continue to focus on increasing system reliability 
        to build warfighter confidence by upgrading, improving, and 
        sustaining deployed systems and executing a rigorous and 
        continuous test and evaluation approach with strong modeling 
        and simulations to mature technologies and validate deployed 
        capabilities.
  --Second, we will increase engagement capability and capacity by 
        increasing the number of fielded interceptors, building out the 
        sensor architecture with the aim of capturing ``birth-to-
        death'' tracking, improving system discrimination and 
        integration, leveraging international partnerships for 
        affordability and interoperability, and working closely with 
        the Combatant Commands to provide integration support and 
        capabilities to meet emergent operational needs.
  --Third, we will address the advanced threat by working with 
        Combatant Commands and Services to address emerging threats, to 
        include the growing and highly challenging hypersonic glide 
        vehicle and cruise missile threats and by pursuing advanced 
        technologies, such as directed energy, and making prudent and 
        affordable investments in potentially game-changing 
        capabilities.
    I can tell you today that the current BMDS meets today's threat, 
but we require additional capacity and advanced capability to stay 
ahead of the evolving threat, as is requested in the fiscal year 2019 
President's Budget.
Missile Threat
    Nearly all of our adversaries are concerned with U.S. missile 
defenses and have devised various means to complicate missile defense 
operations. Missile defense countermeasures continue to be developed 
and fielded. Future supersonic/hypersonic powered cruise missiles may 
be launched by large rocket boosters that have traditionally been 
associated with ballistic missiles. Hypersonic glide vehicles are being 
developed as a new type of ballistic missile payload. The combination 
of high speed, maneuverability, and relatively low altitude makes them 
challenging targets for missile defense systems.
    North Korea is committed to developing a long-range, nuclear-armed 
missile that is capable of posing a direct threat to the United States. 
In 2016 and 2017, North Korea conducted over 40 launches of short, 
medium, intermediate, submarine-launched, and intercontinental- range 
systems. This past February, North Korea paraded five ballistic missile 
systems: four of these received their first test launch in 2017. North 
Korea flight-tested two Hwasong-14 intercontinental ballistic missiles 
(ICBMs) in July. In their tested configuration, these missiles are 
capable of reaching North America. In late November 2017, North Korea 
launched what it described as a new ICBM-the Hwasong-15-which also 
demonstrated a capability to reach the United States. Pyongyang flew 
two Hwasong-12 intermediate-range missiles over Japan last year, 
placing our allies at potential risk from missile debris. The second of 
these tests demonstrated a capability to reach over 3,700 kilometers, 
which can range beyond Guam. The North twice flight-tested a solid-
propellant medium-range missile capable of reaching Japan. Based on 
North Korea's developmental submarine-launched ballistic missile, this 
system-the Pukguksong-2-is the North's longest-range solid-propellant 
missile. This advancement is significant because solid-propellant 
missiles can be prepared for launch more rapidly than liquid- 
propellant systems. Additional missile launches out of North Korea--
from short-range to intercontinental-range--are a near certainty. In 
addition to further strategic-weapon testing, North Korea has announced 
that it will focus on producing and deploying nuclear weapons and 
ballistic missiles in 2018.
    Iran has ambitious ballistic missile and space launch development 
programs and continues to attempt to increase the lethality of its 
ballistic missile force. Iran is fielding increased numbers of theater 
ballistic missiles and improving its existing inventory. Its progress 
on space launch vehicles could shorten a pathway to an ICBM. Iran's 
ballistic missiles are capable of striking targets throughout the 
region, ranging as far as southeastern Europe. It has used these 
missiles in the region, conducting retaliatory strikes on ISIS targets 
in Syria. Iran has steadily increased its ballistic missile force, 
deploying next-generation short- and medium-range ballistic missiles 
(SRBMs and MRBMs) with increasing accuracy and new submunition 
payloads. Iran is developing, and has publicized the testing of, SRBMs 
with anti-ship payloads. Iran also continues to proliferate ballistic 
missiles to States and non-State groups.
Increasing System Reliability through Testing, Warfighter 
        Collaboration, and Cybersecurity
    We continue to enhance the reliability and functionality of current 
missile defense systems, especially the Ground Based Interceptors and 
Aegis BMD Weapon System/Standard Missile (SM)-3 performance, build the 
confidence of Warfighters in the BMDS, and work to reduce the number of 
interceptors needed to defeat in-flight ballistic missile threats. To 
increase system reliability and improve warfighter confidence in the 
system, MDA executes a fully integrated test program that synchronizes 
the system with the Warfighters trained to operate the system under 
varying wartime conditions against current and emerging threats. This 
ensures BMDS capabilities are credibly demonstrated and validated prior 
to delivery to the Warfighter.
    MDA executes a continuous program to improve system reliability and 
manage service life of our BMDS components. An example is the Ground-
based Midcourse Defense (GMD) weapon system. A cornerstone of this 
effort is our stockpile reliability program (SRP) for Ground Based 
Interceptors (GBIs). Two GBIs have been removed from the fleet this 
past year, inspected, and tested to gain understanding of how the GBIs 
age in the silos. Another GBI will be removed this year for the SRP. 
From testing to date, we have been able to extend the service life of 
the C1 and C2 boosters. Another key effort is our Service Life 
Extension program. This program performs lifetime testing on key 
components in the kill chain enabling MDA to extend the service life 
beyond the manufacturer's estimate. This testing allows us to avoid 
unnecessary maintenance actions and control operations and support 
costs. MDA also pursues reliability improvements through our 
development activities. We measure availability and reliability data in 
the field and target improvements in the GBIs and GMD ground system 
development programs. A key delivery this year was Ground System 7A, 
which removed obsolete equipment from the kill chain, eliminated cyber 
defense vulnerabilities, and improved redundancy for the warfighter. 
Key future reliability improvements include delivering the Redesigned 
Kill Vehicle and upgrading the GMD Communications Network, launch 
support equipment, and the IFICS Data Terminal High Power Amplifier.
    We continue to work closely with independent testers within the 
Department--the Director, Operational Test and Evaluation (DOT&E); 
Deputy Assistant Secretary of Defense, Developmental Test & Evaluation; 
Service Operational Test Agencies; Combatant Commands, and the Joint 
Forces Component Command for Integrated Missile Defense--to develop an 
Integrated Master Test Plan (IMTP) and execute a robust, cost-effective 
test program. The IMTP provides a flight- and ground-test program, to 
include rigorous modeling and simulation, systems engineering and 
validation, verification and analysis necessary to demonstrate and 
deliver proven integrated capabilities against the evolving threat.
    MDA focuses on BMDS flight and ground testing that rigorously 
verifies, validates, and accredits models and simulations (M&S) to 
ensure confidence in the data used to make performance assessments. We 
use M&S in a robust integrated and distributed ground-test program. In 
2018 MDA began the development of a high-fidelity, all-digital, 
integrated, BMDS- level simulation. This effort will combine the best 
performance assessment models from across all BMDS elements into an 
integrated simulation. The all-digital simulation will be able to model 
full BMDS architectures and excursions that cannot be easily explored 
in ground tests or flight tests for a more thorough exploration of the 
BMDS performance space. In fiscal year 2017, MDA successfully 
demonstrated a prototype of this digital simulation capability.
    Our system ground-tests are the primary source for system 
performance data, and they test our capability across a wide range of 
threats and environments that cannot be replicated affordably in flight 
tests. The BMDS Operational Test Agency, which provides an independent 
operational assessment of the BMDS, relies heavily on the MDA ground-
test program to assess independently MDA's operational capability. The 
ground-tests allow analysts to characterize BMDS performance under 
varying conditions, with unconstrained red and blue force limitations, 
and without the safety, fiscal, and hardware availability limitations 
of flight-testing.
    Additionally, with warfighters on console, they are able to use 
ground-tests to refine Tactics, Techniques, and Procedures. All of the 
data from ground tests are used to inform DOT&E assessments of BMDS 
capability.
    In addition to 14 element-level ground-tests, we conducted nine 
developmental and operational system-level ground-tests from October 
2016 to present. There are two more system-level ground-tests scheduled 
for this fiscal year and eight more planned for fiscal year 2019. Last 
year, we also conducted or participated in more than 20 multi-event 
exercises and wargames, which are critical to the Combatant Commands 
and the intensive engineering efforts across the Agency.
    Flight-testing uses operational realism to provide data for M&S and 
demonstrates the performance functions of the system that ground-
testing cannot address. One of the key attributes of each flight-test 
is combining the system under test with the Soldiers, Sailors, Airmen, 
and Marines that plan to operate the system in wartime under 
operationally realistic conditions. We also work closely with our 
allies to prove BMD capabilities are integrated and interoperable 
before they are fielded. From October 2016 to present, we have executed 
27 flight-tests. For the remainder of fiscal year 2018, we will conduct 
two more flight-tests, and in fiscal year 2019, 12 flight-tests, 
including the operational test of European Phased Adaptive Approach 
(EPAA) Phase 3 capabilities and the first salvo test using the Ground-
based Midcourse Defense (GMD) system. The Agency also is conducting 
detailed planning to conduct an Aegis BMD test against a long-range 
ballistic missile target and adding an IRBM target to GM CTV-03+ as 
risk reduction for the homeland defense Redesigned Kill Vehicle (RKV) 
program. Both tests are planned for fiscal year 2020.
    The Warfighter is integrated into our requirements, engineering 
design/review and test efforts and processes. The Unified Command Plan 
assigns responsibility to the U.S. Strategic Command (USSTRATCOM) 
Commander to synchronize planning for global missile defense in 
coordination with other Combatant Commands, the Services, and 
appropriate U.S. Government agencies. USSTRATCOM, the central 
integrator for our requirements, defines the Integrated Air and Missile 
Defense (IAMD) Warfighter Involvement Process (WIP), which outlines the 
roles and responsibilities for all participants and establishes the 
structure for collaboration and advocacy for desired missile defense 
capabilities and characteristics on behalf of the Warfighter. 
USSTRATCOM leads the WIP, advocates for the Combatant Commanders' 
desired IAMD characteristics and capabilities, and provides a 
Prioritized Capabilities List (PCL) of joint military capability needs 
to MDA and other appropriate acquisition authorities. The PCL informs 
MDA's President's Budget Request.
    The Capabilities Document for Homeland Ballistic Missile Defense, 
accepted by the Joint Requirements Oversight Council (JROC) in 2014, 
baselined the current concept and prioritized future capabilities 
within the homeland defense BMD system based on previously approved 
Warfighter requirements, acquisition decisions, and current long-term 
investment strategy. This review included rigorous warfighter 
coordination and provided the opportunity to the Warfighter to shape 
the document, which resulted in the JROC accepting the framework and 
Required Operational Attributes in the document. The Agency now uses 
those Required Operational Attributes as the requirements that guide 
capability development and future program capabilities necessary to 
make the system effective against threats in the future.
    The objective of any development program is to provide effective 
warfighting capability to the hands of the warfighter as soon as it is 
technically and operationally feasible. Ultimately, the Services and 
Combatant Commands will operate and employ these capabilities as 
required. Upgraded Early Warning Radars, COBRA DANE, and Patriot are 
examples of systems or components that have successfully transitioned. 
Transitioning operations and sustainment to Services allows development 
agencies to re-focus RDT&E activities to address evolving threats. 
Terminal High Altitude Area Defense (THAAD) and AN/TPY-2 radar 
transition is in work with the Army and we are developing an agreement 
on the conditions and terms of transfer.
    Additionally, we are developing a plan for transition of Standard 
Missiles to the Navy, as is requested in the fiscal year 2019 
President's Budget. MDA will continue to work within the Department on 
decisions to transfer capability to the Services. As transition is the 
end goal, each element and component will be evaluated against criteria 
such as its multi-mission potential; technical maturity; requirements 
and technical volatility; and interoperability with the overall system 
to determine the pace at which we will pursue transition.
    MDA will also continue to provide the Warfighter operational 
support by performing the routine mission essential functions of BMDS 
configuration control, asset management, and operational readiness 
reporting, providing an operational-level interface to United States 
Strategic Command, Northern Command, European Command, Central Command, 
and Pacific Command, and facilitating increased Warfighter 
participation in development of future missile defense capabilities. 
MDA will continue to provide support for systems like the globally 
deployed Aegis BMD/Standard Missile (SM)-3 system, AN/TPY-2 radar 
(Terminal and Forward-Based Modes), THAAD, and Command and Control, 
Battle Management and Communications (C2BMC). MDA also will continue to 
lead the integration of evolving MDA, Service, and COCOM command and 
control capabilities through systems engineering analysis and 
development of technical integration requirements and interface control 
documents to address the fielding of air, missile, and rocket 
capabilities by U.S. adversaries.
    Getting work on contract and delivering capability as quickly as 
possible using the unique and broad set of authorities, 
responsibilities and accountability assigned to the Agency with 
balanced oversight from the Under Secretary (Research and Engineering) 
and Under Secretary (Acquisition & Sustainment) are critical to our 
ability to support the Warfighter and accelerate program decisions and 
contract actions necessary to counter the rapidly evolving threat. As 
an example, MDA program offices are expediting activity to put new 
content on contract to deliver new capability to the Warfighter after 
receiving $250 million in fiscal year 2017 reprogrammed funds and over 
$2.0 billion in emergency appropriations requested in the fiscal year 
2018 Budget Amendment to support the Missile Defeat and Defense 
Enhancements (MDDE) initiative. Additionally, our centralized decision 
authority for program development and contract updates enabled more 
rapid incorporation of mandatory cybersecurity contract actions. New 
contract and program strategies, to include the proposed strategy for 
the Homeland Defense Radar--Hawaii (HDR-H), also are quickly approved 
and implemented.
    Finally, the Missile Defense Agency is cognizant of the growing 
cyber threat and we continue to work aggressively to ensure the 
Nation's missile defenses are resilient and able to operate in a highly 
contested cyber threat environment. We are progressively improving the 
cyber hygiene of our missile defense capabilities by ensuring the 
cybersecurity infrastructure has the latest security upgrades. MDA 
remains focused on supporting the DoD Cybersecurity Campaign through 
implementation of the DoD Cybersecurity Discipline Implementation 
Plan--Four Lines of Effort for: Strong Authentication, Hardening of 
Systems, Reducing the DoD Attack Surface, and Alignment to 
Cybersecurity/Computer Network Defense Service Providers across all 
networks. These four lines of effort are critical to the defense of the 
MDA networks.
    In addition to the four lines of effort, MDA has determined that 
protection of the Nation's BMDS unclassified data requires additional 
safeguards and enhanced vigilance. As part of these safeguards, MDA has 
engaged with our defense industrial base corporate partners to ensure 
cybersecurity is prioritized, addressed and enforced at all levels of 
the supply chain. The National Institute of Standards and Technology 
(NIST) has developed a Framework for Improving Critical Infrastructure 
Cybersecurity. This is a set of industry standards and best practices 
to help organizations manage cybersecurity risks. Measures include NIST 
control compliance, industry cybersecurity best practices as well as 
techniques for providing only the need-to-know unclassified BMD system 
data to each level of the supply chain. We continue to address industry 
compliance with applicable DFARs clauses associated with the protection 
of critical MDA controlled unclassified information and critical data.
    Not only are we focused on external threats to our enterprise, but 
MDA acknowledges the reality of the insider threat as one of the more 
pervasive threats to be addressed, and we have established and 
implemented an aggressive Agency Insider Threat Program. This allows us 
to monitor both internal and external data movement to ensure all 
unclassified and classified data is handled in accordance with 
applicable guidance and is also afforded the highest level of 
protection. We are constantly evaluating our attack data and updating 
the MDA Emergency Response Team procedures. Abnormalities or violations 
are quickly identified and thoroughly investigated by both MDA and DoD 
Insider Threat and Counter Intelligence.
    Finally, MDA is actively integrating cybersecurity requirements 
early into the acquisition life cycle to increase security and reduce 
overall cost. For example, we are upgrading C2BMC and the GMD ground 
systems software and hardware to enable enhanced cybersecurity 
protection capabilities. To better support our Combatant Commanders, 
this year we successfully executed the first DOT&E Cybersecurity 
Vulnerability & Penetration Assessment on BMDS platform systems 
culminating in a system-level assessment during Ground Test 
Distributed-07a. This is a significant step in understanding the 
cybersecurity posture of the BMDS and the ability to defend against 
emerging threats. We continue to develop a culture of cybersecurity 
knowledge and accountability across the Agency, which fosters awareness 
down to the user level to anticipate, detect, and respond to cyber 
issues before they can have an impact.
    The MDA office of the Chief Information Officer, which conducts 
cybersecurity testing involving all the systems to include BMD 
elements, development labs, test systems to ensure the entire MDA 
Enterprise is secure, executes several testing efforts across MDA 
systems on an annual basis: 46 cybersecurity controls validation tests, 
50 vulnerability assessments, and 110 software assurance code reviews, 
for a total of 1,030 test across the Future Years Defense Program 
(FYDP). MDA also executes BMDS element and system level tests that 
support fielding of new capability to be included in the Operations 
Capacity Baseline. Per Section 1647 of the fiscal year 2016 NDAA, MDA 
is also responsible for MDA weapon system cyber testing and risk 
mitigation for the congressional report scheduled to be delivered first 
quarter fiscal year 2020. Over the FYDP there are over 211 cyber tests 
planned, including developmental and operational Cooperative 
Vulnerability and Penetration Assessments (CVPA) and Adversarial 
Assessments.
    We have had a comprehensive ongoing effort since 2010 that I 
believe will go a long way in providing insight and proof of MDA's 
commitment to cyber protection and testing as a way of being responsive 
to DOT&E and working with them on the way-ahead. For example, as the 
cybersecurity threat has matured, the Terminal High Altitude Area 
Defense (THAAD) program identified the need to take a proactive 
approach to cybersecurity. The likelihood and consequence of the cyber-
threat was increasing at a pace that necessitated programmatic change. 
After careful consideration, we created a comprehensive cyber program 
structure called the THAAD Security and Networking Division. This 
organizational structure is the foundation of THAAD's cyber security 
model and acts as the enabler for THAAD execution in all areas of 
cybersecurity. Cybersecurity includes compliance, security engineering, 
design, development, test, physical security and program security. The 
key to executing these roles is the understanding of the linkage that 
cybersecurity has with system engineering and the acquisition 
processes. By locating cybersecurity into THAAD's system engineering 
directorate, this aligns cybersecurity functions to the following other 
functions: software, modeling and simulation, future concepts, 
requirements, and system integration. This alignment not only ensures 
cybersecurity is inherit in the system engineering and development life 
cycles, it is the catalyst to increase THAAD's chances of survival in a 
cyber-contested environment. We believe this is a proven model that 
should be considered a best practice.
Increasing Engagement Capability and Capacity
    This budget request maintains operational missile defense 
capabilities for existing operational homeland and regional defense 
forces and will continue to increase interceptor inventory capacity and 
use existing technologies to improve sensors, battle management, fire 
control, and kill vehicle capabilities to address evolving threats.
            Homeland Defense
    MDA remains committed to operating, sustaining, and expanding our 
Nation's homeland missile defenses and requests $2.2 billion in fiscal 
year 2019 for the Ground-based Midcourse Defense (GMD) program. We 
currently have emplaced 44 operational GBIs and, in accordance with the 
fiscal year 2017 Above Threshold Reprogramming and fiscal year 2018 
Budget Amendment, plan to expand the fielded GBI fleet to 64 as early 
as 2023. This increase to GBI capacity is a response by the National 
Command Authority to the rapidly advancing North Korean threat and has 
been designated as an ``emergency requirement'' by the President in the 
fiscal year 2018 President's Budget Amendment.
    The Agency will continue to demonstrate improved performance 
through flight- and system-ground testing of homeland defenses, 
integrate additional capabilities provided by the Long Range 
Discrimination Radar (LRDR), BMDS system track, and Homeland Defense 
Radar- Hawaii (HDR-H), plan for a Homeland Defense Radar--Pacific (HDR-
P), continue Redesigned Kill Vehicle (RKV) development, enhance the 
Stockpile Reliability Program, and expand the GBI battle space. We will 
continue improving our sensors, C2BMC, GMD ground systems hardware/
software upgrades, GMD Fire Control (GFC), and kill vehicle software to 
improve discrimination capabilities and overall system performance. We 
also will continue to improve confidence in our reliability through 
increased testing and analysis.
    At the same time, MDA is evaluating the technical feasibility of 
the capability of the SM- 3 Block IIA missile, currently under 
development, against an ICBM-class target in accordance with 
Congressional legislation. If proven to be effective against an ICBM, 
this missile could add a layer of protection, augmenting the currently 
deployed GMD system. As directed by the fiscal year 2018 NDAA language, 
we will conduct this demonstration no later than December 31, 2020.
            Increasing GBI Capacity
    In 2013, the Secretary of Defense directed MDA to expand the GBI 
fleet from 30 to 44 by the end of 2017, in response to provocations 
from North Korea. The GBI is the Nation's primary defense against long-
range and intercontinental ballistic missiles. In November 2017, MDA 
emplaced the 44th GBI at Fort Greely, Alaska (FGA). Achieving this 
objective required MDA to purchase and field 14 additional GBIs. It 
also required refurbishment of Missile Field-1 to remediate obsolete 
hardware, update silo interface equipment, install a hardened 
mechanical electrical building, and upgrade related mission support 
systems infrastructure. To support the 44 GBIs within the existing 
system, MDA also upgraded GFC and ground systems.
    Leading up to the fielding of 44 GBIs, MDA conducted three 
successful flight tests. Flight Test Ground-based Midcourse Defense 
(FTG)-06b, conducted in June 2014, demonstrated long interceptor time-
of-flight and Capability Enhancement (CE)-II Exo-atmospheric Kill 
Vehicle (EKV) capability to discriminate targets and intercept lethal 
objects from a representative target scene with countermeasures. A 
controlled test vehicle flight test, GM CTV-02+, conducted in January 
2016, evaluated CE-II EKV performance with the newly designed Alternate 
Divert Thrusters in a non-intercept flight environment while allowing 
data collection to evaluate system enhancements, advanced 
discrimination algorithms, and salvo intercept time spacing.
    FTG-15, conducted in May 2017, demonstrated viability of the new 3-
Stage Configuration 2 (C2) booster and CE-II Block 1 EKV GBI. This was 
the first ever intercept of an ICBM-class target. The FTG-15 flight 
test successfully demonstrated our homeland defenses GMD's systems 
functioned as predicted against a realistic threat ICBM-range target. 
The upgraded CE-II Block 1 EKV launched on a C2 booster successfully 
intercepted and destroyed a target designed to emulate a projected 
North Korean threat. FTG-15 proved effective engineering and 
manufacturing of the new GBI as well as improved discrimination 
algorithms, missile defense architecture and warfighter command and 
control.
    MDA is developing the capability to provide the Warfighter the 
option of either flying GBIs using all three booster stages or not 
igniting the third stage, providing performance similar to a 2-stage 
boost vehicle. This approach will provide additional homeland defense 
battle-space capability through shorter engagement times without the 
expense of a separate 2-stage boost vehicle development program. This 
capability is planned to be tested in Calendar Year (CY) 2019, after 
which it will be fielded on all boost vehicle configurations.
            Redesigned Kill Vehicle
    The Redesigned Kill Vehicle (RKV) will improve reliability and make 
homeland defenses more robust. The RKV will help address the evolving 
threat, enhance kill vehicle reliability, improve in-flight 
communications to better utilize off-board sensor data, and heighten 
Combatant Commanders' situational awareness via hit/kill assessment 
messages. The program leverages the SM-3 Block IIA kinetic warhead 
electronic and seeker to provide commonality among Agency interceptors, 
which is expected to lower costs, reduce risks and increase the speed 
of technology development and fielding of the RKV. The program schedule 
will conduct its first controlled test vehicle flight test of the RKV 
in fiscal year 2020 (GM CTV-03+). The first intercept flight test (FTG-
17) is planned for fiscal year 2021 with a second intercept flight test 
(FTG-18) in fiscal year 2022. We anticipate deploying the RKV beginning 
in the fiscal year 2022 timeframe.
    In 2018 MDA is initiating the GMD portion of MDDE, which will field 
an additional 20 RKV-equipped GBIs at FGA. MDA will accelerate the RKV 
production deliveries, construct a new missile field (Missile Field 4) 
at Fort Greely, install 20 silos, and deliver an additional 20 GBIs 
tipped with RKVs. We will complete the GMD portion of the MDDE as early 
as 2023. In addition, MDA will initiate a plan to ensure that no less 
than 64 GBIs are available to the Warfighter at all times. To 
accomplish this, MDA will add two silos to MF-1 at FGA and purchase six 
additional GBI boosters. The additional silos and boosters will enable 
MDA to deliver an RKV-equipped GBI prior to removing a GBI as we 
replace the CE-I Kill Vehicles currently in the fleet.
            Ground System Upgrades
    MDA is continuing with capability upgrades and technology 
modernization of key ground support and fire control systems components 
such as the GFC equipment, the GMD Launch Support System, 
Communications Network, and the In-Flight Interceptor Communication 
System Data Terminal. The capability upgrades include: GFC-Warfighter 
interface and logic improvements, 2-/3-stage selectable GBI battle 
management, discrimination improvements, enhancements to the kill 
vehicle Target Object Map, and On-Demand Communications for the RKV. 
Ground system modernization will continue to mitigate obsolescence 
issues, improve cybersecurity resilience, increase GFC capacity for 
emerging threat complexity and raid size, reduce life-cycle cost, 
increase system reliability and operational availability, and simplify 
the insertion of future technologies.
            Defense Sensors
    We are investing in radars and developing advanced electro-optical 
sensors to achieve a diverse sensor architecture that will provide 
highly accurate midcourse tracking, discrimination and battle damage 
assessment. We are also leveraging Services' sensors to support the BMD 
architecture, for example, the Navy's new solid state SPY-6 radar on 
their Flight III destroyers, the Air Force F-35 Distributed Aperture 
System, and future Department of Defense and Intelligence Community 
space sensors. In this year's budget submission we highlight the 
continued development of the Long Range Discrimination Radar (LRDR) and 
Spacebased Kill Assessment (SKA) programs, which will improve system 
target discrimination and assessment capabilities. Improved sensor 
coverage and interceptor capabilities will help the Warfighter expand 
the battle space to reengage threats as needed.
    We request $176.1 million to sustain COBRA DANE, the Upgraded Early 
Warning Radars (UEWR), and the Army Navy/Transportable Radar 
Surveillance and Control Model-2 (AN/TPY-2) radars. The Services and 
Combatant Commands, with logistical support from the MDA, operate a 
fleet of five AN/TPY-2 (Forward Based Mode) radars in Japan, Israel, 
Turkey, and U.S. Central Command in support of homeland and regional 
defense.
    We request $220.9 million to continue the development of advanced 
discrimination algorithms for the AN/TPY-2, Sea-Based X-band (SBX) 
radar, and the UEWRs to counter evolving threats. The discrimination 
improvements will develop and field integrated capabilities to improve 
the BMDS ability to identify lethal and non-lethal objects. Beginning 
in fiscal year 2018, MDA will complete transition to production design 
activities for next generation Gallium Nitride Transmit/Receive 
Integrated Multichannel Modules to support the AN/TPY-2 obsolescence 
and sparing strategy and set the condition for enhanced performance in 
the future. MDA requests $81.0 million for Ballistic Missile Defense 
(BMD) Sensors testing activities for planning, analysis, and execution 
of BMDS flight test events, including pre- and post-test efforts, such 
as Digital and Hardware-in-the-Loop Pre-Mission Tests, and Post-Flight 
Reconstruction.
    MDA requests $149.7 million for the SBX radar. The SBX is an 
advanced mobile radar that provides precision midcourse tracking and 
discrimination capabilities. The SBX participates in flight tests to 
demonstrate discrimination and debris mitigation improvements. To 
address the continued missile test activity of North Korea, our budget 
request includes funds to extend time at sea and conduct contingency 
operations for defense of the homeland in the U.S. Pacific Command and 
U.S. Northern Command areas of responsibility.
    We request $164.6 million to continue development of the LRDR. The 
LRDR is a midcourse sensor that will provide persistent long-range 
midcourse discrimination, precision tracking, and hit assessment and 
improve BMDS target discrimination capability while supporting a more 
efficient utilization of the GMD interceptor inventory. LRDR also will 
support additional mission areas, including Space Situational 
Awareness. The LRDR site will be constructed as two separate military 
construction projects. For fiscal year 2017, Congress fully funded 
Phase 1 of the LRDR project by providing $155 million for a Shielded 
Mission Control Facility and Radar Foundation. MDA began military 
construction of Phase 1 in fiscal year 2017. Phase 2 in fiscal year 
2019 will address the shielded Power Plant that includes fuel storage, 
a maintenance facility, and associated site support. Initial fielding 
of the LRDR is on schedule for first quarter CY 2020.
    We are on-schedule for the Technical Capability Declaration in late 
third quarter or early fourth quarter fiscal year 2021, leading to 
Warfighter Operational Readiness Acceptance in fiscal year 2022.
    The Sensors Analysis of Alternatives (AoA), conducted by the 
Department to assess the most cost-effective options for enhanced 
sensor capability to increase Ground Based Interceptor effectiveness 
against future, complex threats, highlighted the operational value of 
placing additional discrimination radars in the Pacific. Based on the 
Sensor AoA finding, MDA completed site surveys for the Homeland Defense 
Radar-Hawaii (HDR-H) in fiscal year 2017. We requested $21 million in 
fiscal year 2018 for the HDR-H to conduct source selection activities 
and award this radar as the first delivery order on a fixed-price 
indefinite delivery/indefinite quantity (IDIQ) contract. MDA is 
requesting $62.2 million in fiscal year 2019 for the HDR-H. In 
addition, MDA plans to complete site surveys in fiscal year 2018 and 
competitively award the Homeland Defense Radar-Pacific (HDR-P) by the 
end of fiscal year 2019 as the second delivery order on the IDIQ 
contract. MDA is requesting $33.5 million in fiscal year 2019 for the 
HDR-P. Both radars will close coverage gaps in the Pacific architecture 
and provide persistent long-range acquisition and midcourse 
discrimination, precision tracking, and hit assessment to support the 
defense of the homeland against long-range missile threats.
    Space provides the critical vantage point necessary to address 
rapidly advancing threats across multiple regions of interest and the 
only vantage point for global persistence to address Warfighter 
requirements. A space-based sensor layer would enable the United States 
to use interceptor inventory more efficiently and effectively to 
counter a broad array of threats. Integrated space and terrestrial 
sensors for tracking, discriminating, cueing and targeting ballistic 
missile threats can improve missile defense architecture robustness.
    We are requesting $16.5 million for the Spacebased Kill Assessment 
(SKA) program. Using fast frame, infrared sensors, SKA will deliver a 
kill assessment capability for GMD defense of the homeland as part of 
an integrated post intercept assessment solution requested in the 
fiscal year 2014 NDAA. SKA is MDA's pathfinder program to deliver a 
resilient sensor network in a rapid and affordable manner. Ground 
segment participation in BMDS flight tests occurred last year; on-orbit 
deployment of the sensors occurs this year; and we are looking at steps 
to add SKA to the operational BMDS when SKA proves itself during flight 
testing next year.
    Also, we request $37.0 million for continued operation of the Space 
Tracking and Surveillance System (STSS) and the Missile Defense Space 
Center (MDSC) in fiscal year 2019. STSS satellites, which were launched 
in 2007, have exceeded their life expectancy and have proven to be a 
good investment. These satellites operate in low earth orbit and 
continue to collect valuable test data. The STSS program and the MDSC 
support concept development activities for future space sensor 
architecture studies and analyses to address advanced threats.
    MDA is currently conducting trade studies and prototype concept 
design for a potential space-based missile tracking sensor/system.MDA 
envisions a space-based sensor architecture designed to detect and 
track traditional and emerging threats using persistent infrared 
sensing. If pursued, space sensors could be a key element of an 
integrated and layered BMDS Sensor Architecture. MDA could partner with 
the U.S. Air Force on requirements definition. MDA also envisions 
partnering opportunities with the Air Force on ground services, 
integration, launch, and operations. MDA will leverage the Enterprise 
Capabilities developed collaboratively between other DoD and Federal 
agencies.
Regional Defenses
    There are hundreds of ballistic missiles within range of U.S. 
forces and allies worldwide. Our fiscal year 2019 budget request 
continues to resource and build integrated regional missile defenses 
that are interoperable with systems deployed by international partners 
to protect deployed forces, allies and international partners against 
SRBMs, MRBMs, and IRBMs.
            Terminal High Altitude Area Defense
    Terminal High Altitude Area Defense (THAAD) is a transportable, 
ground-based missile defense system that defends against short- , 
medium-, and intermediate-range ballistic missiles in the terminal 
phase of flight. THAAD provides Combatant Commanders a rapidly 
deployable capability to deepen, extend, and complement BMDS homeland 
and regional defenses. THAAD is now 15 for 15 in flight testing. MDA is 
conducting New Equipment Training for the 7th Battery, which will be 
ready for operational support to the Army later this calendar year. MDA 
also continues to deliver interceptors for the U.S. inventory. We have 
successfully fielded two THAAD batteries for a Foreign Military Sales 
case with the United Arab Emirates (UAE), and continue to deliver 
interceptors for the UAE inventory and provide maintenance and 
sustainment support.
    Continued provocations demonstrate the serious threat North Korea 
poses to the Republic of Korea (ROK), the Asia-Pacific region, and U.S. 
forward-deployed forces. MDA continues to provide maintenance and 
supply support of the THAAD battery (including the Terminal Mode AN/
TPY-2 radar) stationed in Guam. MDA is strengthening the capability of 
this regional BMDS presence in response to a United States Forces Korea 
Joint Emergent Operational Need (JEON) to increase integrated missile 
defense system interoperability and expand the defended area. This 
requirement is supported by USSTRATCOM and approved by the Chairman of 
the Joint Chiefs of Staff (CJCS).
    U.S. Pacific Command initiated the deployment of the THAAD system 
to the ROK on March 6, 2017, implementing the U.S.-ROK Alliance's July 
2016 decision to bring the defense capability to the peninsula. In 
coordination with the Army's Lower Tier Program Office, MDA began a 
concerted effort in May 2017 to develop an integrated, phased approach 
to incrementally field capability, delivering improved BMDS capability 
to the Korean Peninsula, including integration of existing BMD assets 
to improve engagement options and coverage. The deployment of THAAD 
contributes to a layered missile defense system and enhances the U.S.- 
ROK Alliance's defense against North Korean missile threats.
    At OSD direction, the Army and MDA developed a draft Memorandum of 
Agreement (MoA) for the transfer of the THAAD and AN/TPY-2 programs 
from MDA to the Army. The draft MoA stipulates that when THAAD 
transfers to the Army, production operations and sustainment program 
and funding for THAAD and AN/TPY-2 systems would transfer to the Army, 
and Research and Development program funding of THAAD and AN/TPY-2 
radars would remain in MDA. The MoA was approved by MDA and is 
currently being reviewed by the Army.
    MDA requested $214.2 million in fiscal year 2019 for THAAD 
development efforts. We will continue development of THAAD software 
upgrades to address threat packages and defense planning as well as 
improved capability to engage SRBM, MRBM, and limited IRBM threats. 
THAAD development and integration will provide enhanced debris 
mitigation capability, improved interoperability with other BMDS 
elements, and expanded defended area footprints via remote operation of 
THAAD Launchers, as well as complete developmental efforts to upgrade 
and ensure the integrity and availability of positioning, navigation, 
and timing data for the THAAD weapon system. Finally, we will continue 
development efforts associated with USFK JEON that provide enhanced 
THAAD capability against specific USFK threats, improved radar energy 
allocation, improved THAAD performance against debris and in complex 
environments, and an accelerated initial capability to remote launchers 
and increase defended area.
    Flight Test THAAD-18 (FTT-18) was conducted in Kodiak, Alaska on 
July 11, 2017. This test demonstrated THAAD's intercept of an IRBM-
class target and THAAD's ability to fire from two launchers. Flight 
Experiment THAAD-01 (FET-01) was conducted in Kodiak, Alaska on July 
30, 2017, which collected critical performance data related to 
countermeasures. Additionally, THAAD successfully achieved an intercept 
against the target in that countermeasure environment.
    MDA requests $874.1 million to continue procurement of THAAD 
equipment, including 82 THAAD Interceptors in fiscal year 2019. By the 
end of fiscal year 2019, MDA will deliver 60 additional THAAD 
Interceptors to the U.S. Army, for a total of 276 interceptors 
delivered. MDA requests $61.0 million for Terminal Defense Testing in 
fiscal year 2019. We also request $92.6 million of Operations and 
Maintenance funding to support the maintenance and upkeep of all BMDS- 
unique items of the fielded THAAD batteries and for all THAAD training 
devices. In fiscal year 2018 MDA will provide support to seven THAAD 
batteries, including the two forward batteries stationed in the U.S. 
Pacific Command's area of responsibility and is prepared to support the 
U.S. Army in any future deployment around the world.
            Aegis Ballistic Missile Defense
    Aegis BMD continues to be a key component of the Nation's regional 
defense for our deployed forces, allies, partners and friends, and 
directly supports and expands our homeland defenses with long range 
surveillance and track capability. The fiscal year 2019 budget request 
of $767.5 million supports continued advancement of the system to 
counter the growing threats.
    In fiscal year 2017 we completed one Aegis BMD Weapon System 
installation on an Aegis ship: Aegis BMD 3.6 to Aegis Baseline (BL) 
9.C1 (BMD 5.0CU) upgrade. We also initiated two Aegis BMD Weapon System 
installations on Aegis ships: one Aegis BMD 3.6 to Aegis BL 9.C1 (BMD 
5.0CU) upgrade and one non-BMD capable ship to Aegis BL 9.C1 (BMD 
5.0CU) upgrade. In fiscal year 2018 we began an additional eight Aegis 
BMD Weapons Systems installations on Aegis ships: six Aegis BMD 3.6 to 
4.X, and two non-BMD capable ships to Aegis BL 9C.2 (BMD 5.1). We also 
retired the BMD 4.0.2 baseline in fiscal year 2017. We will retire BMD 
4.0.3 through upgrades to BMD 4.1 in fiscal year 2019. In fiscal year 
2017, we delivered 55 Standard Missile-3 (SM-3) Block IB missiles. 
Additionally, in fiscal year 2018, we plan to deliver 35 SM-3 Block IB 
production rounds to the Fleet.
    In fiscal year 2019, as part of our overall Aegis BMD request we 
are requesting $232.92 million for the SM-3 Block IIA Program. This 
includes the continued integration of the SM-3 Block IIA into the BMD 
Weapon Systems, as well as pre-production All-Up-Rounds to support the 
initial deployment for EPAA Phase 3. In February 2017, we completed 
SFTM-01, a successful developmental flight test, to demonstrate an 
organic intercept of a MRBM-class target with an SM-3 Block IIA missile 
from an Aegis Baseline 9.C1 Ship. This was the first intercept flight 
test of the SM-3 Block IIA missile, which is a cooperative development 
program with Japan, and supports the initial production decision for 
the SM-3 Block IIA and the Aegis BL 9.C2 (BMD 5.1) certification 
effort, which will certify in 2018. In June 2017, with the execution of 
SM-3 Block IIA Cooperative Development (SCD) Flight Test Mission 
(SFTM)-02, we conducted a second SM-3 Block IIA missile flight test 
using an Aegis Baseline 9.C2 ship. Although this second test did not 
result in an intercept of the MRBM target, significant accomplishments 
were still achieved. A Failure Review Board (FRB) determined that an 
operator's actions at a console resulted in early termination of the 
SM-3 Block IIA missile in flight.
    In January 2018, FTM-29 was conducted with a primary objective to 
intercept an air- launched IRBM-class target with an SM-3 Block IIA 
missile. While an intercept was not achieved, FTM-29 successfully 
demonstrated the ability of the Aegis Weapon System to receive and 
process remote link track via Command, Control Battle Management, and 
Communications (C2BMC) from the AN-TPY 2 radar, confirming Engage on 
Remote functionality. It also resulted in the first launch of a SM-3 
Block IIA missile from the Aegis Ashore Missile Defense Test Complex 
(AAMDTC) at PMRF in Hawaii, which is important for EPAA Phase 3 Aegis 
Ashore sites in Romania and Poland as well as the potential procurement 
of Aegis Ashore by the Government of Japan. An FRB is investigating the 
cause of the failure and unmet objectives will be addressed in future 
flight testing.
    In October 2017, Formidable Shield (FS)-17 was conducted with our 
NATO allies. This exercise included a successful intercept test of an 
SM-3 Block IB Threat Upgrade (TU) missile against an MRBM-class target, 
fired from an Aegis BMD destroyer at the United Kingdom Ministry of 
Defence Hebrides Range in Scotland, which resulted in the successful 
transition to full rate production for the SM-3 Block IB TU. This test 
was a mandatory prerequisite to the full production decision for the 
SM-3 Block IB Program, which was approved in December 2017. As a result 
of the full production decision, MDA is requesting 5-year Multi-Year 
Procurement (MYP) authority for the SM-3 Block IB interceptor for 
fiscal year 2019--fiscal year 2023.
    In fiscal year 2019, we will conduct Flight Test Operation-03 Event 
1 (FTO-03 E1), where two SM-3 Block IIA missiles will simultaneously 
engage two IRBM-class targets, with one fired from Aegis Ashore Missile 
Defense Test Center (AAMDTC) at PMRF and the other from a U.S. Navy 
destroyer. This will demonstrate operational realism in an Engage on 
Remote (EoR) test scenario for ship launched missiles as well as those 
launched from operational Aegis Ashore sites in Romania and Poland.
    We are strongly committed to further enhancing capability of the 
Aegis BMD system and continuing to improve the Aegis Weapon System in 
alignment with Navy requirements. In August 2017, we certified the 
Aegis BMD 4.1 computer program, delivering BMD 5.0CU capability with 
Sea Based Terminal defense with the SM-6 missile. We conducted CTV-03 
following FS-17 on the Hebrides range, firing a SM-6 Dual I using Aegis 
BMD 4.1, providing the proper Objective Quality Evidence to certify 
firing this missile with this computer program.
    In fiscal year 2018, we will certify Aegis BL 9.C2 (BMD 5.1), that 
incorporates the SM-3 Block IIA missile and an EoR capability to meet 
European Phased Adaptive Approach (EPAA) Phase 3 requirements. In 
fiscal year 2018 we also plan to procure 34 SM-3 Block IBs and 20 SM-3 
Block IIAs (16 SM-3 Block IIAs were requested in the fiscal year 2018 
Missile Defeat and Defense Enhancement Budget Amendment and four SM-3 
Block IIAs from the fiscal year 2018 President's Budget (PB) 
submission), and continue efforts on the installation of the Aegis 
Ashore Deckhouse and equipment in Poland.
    In fiscal year 2019, we will continue our commitment to develop, 
test, and deliver global naval capability to the Warfighter and support 
defense of our deployed forces and European NATO allies through 
delivery of EPAA Phase 3 missile defenses. MDA requests a total of 
$805.8 million in procurement for Aegis BMD, which plays a critical 
role in both homeland and regional defense. As part of the overall 
Aegis BMD procurement request, MDA is requesting $411.68 million to 
procure 37 Aegis SM-3 Block IB missiles and $181.81 million to procure 
6 SM-3 Block IIAs, along with associated hardware and support costs. By 
the end of fiscal year 2019, we plan to have 203 SM-3 Block IBs and 12 
SM-3 Block IIAs in inventory. As the part of the procurement budget 
also requests $97.1 million for Aegis BMD Weapon Systems equipment.
    Also part of the request, we are asking for $115.21 million for 
advance procurement for economic order quantities and request 
permission to enter into a 5-year SM-3 Block IB Multi-Year Procurement 
(MYP) contract for fiscal year 2019--fiscal year 2023. MDA will 
continue to deliver to the Navy SM-3 Block IBs and SM-3 Block IIAs once 
production has begun, for deployment on land at the Aegis Ashore site 
in Romania and at sea on multi-mission Aegis ships with BMD capability. 
In coordination with the U. S. Navy, we continue to expand the Fleet, 
and by the end of fiscal year 2018 we anticipate having 38 ships (41 by 
the end of fiscal year 2019) equipped with the Aegis BMD weapon system.
    The Navy is working with MDA to integrate the multi-mission Aegis 
BL 5.3 with Aegis BMD 4.1 into a single computer program. We are 
actively working with Navy to certify this capability in fiscal year 
2020. MDA also continues collaboration efforts with the U.S. Navy on 
AN/SPY-1 radar antenna improvements that, when coupled with Aegis BL 
5.4, increase radar detection sensitivity. We will continue to align 
ourselves with the Navy to develop and deliver a comprehensive 
Integrated Air and Missile Defense capability for the Arleigh Burke 
Flight III Destroyers, working towards a 2024 Initial Operational 
Capability. This Computer Upgrade will integrate BMD capability with 
the advanced Air and Missile Defense Radar (AMDR), also known as the 
AN/SPY-6, for remote engagements and increased raid capacity with 
simultaneous multi-mission capabilities.
    Adding an additional layer to the Aegis BMD weapon system, we are 
using an incremental development approach integrated within the Navy's 
Baseline 9 architecture to develop and deliver a Sea Based Terminal 
(SBT) capability. By expanding the capability of the SM-6 missile and 
BMD 5 series weapon systems, we are delivering capability to maritime 
forces to protect against anti-ship ballistic missiles and provide 
layered defense for forces ashore.
    We executed a non-intercept flight test, Flight Test Experimental 
(FTX)-21 in May 2016 involving the Aegis Sea Based Terminal defense of 
the fleet capability against an advanced threat representative target. 
The target, launched from PMRF in Hawaii, was the first flight of the 
MRBM-class Type 3 Phase 2 target. A U.S. Navy destroyer, an Aegis 
Baseline 9.C1 (BMD 5.0 CU) configured Arleigh Burke Destroyer, detected 
and tracked the target. This was a very important step in ensuring the 
safety of the fleet and demonstrating the Sea Based Terminal 
capability.
    In December 2016, we conducted a detection, tracking, and intercept 
test (FTM-27) to further assess the capability of Sea Based Terminal 
Increment 1 in the Aegis Baseline 9.C1 (BMD 5.0CU) Weapon System. 
During this test we fired a salvo of two SM-6 Dual I missiles against 
the MRBM-class target launched out of PMRF. In this no-notice test, the 
sailors on the consoles aboard a U.S. Navy destroyer demonstrated the 
ability to conduct a critical terminal defense engagement in a ship-
defense role. This was the first intercept test of this kind and it 
gave us greater confidence in the reliability and performance of our 
Sea Based Terminal defense capabilities. We conducted an additional 
test of the Sea Based Terminal Increment 1 capability in April 2017 
(FTM-27 Event 2). During this test we fired a salvo of two SM-6 Dual I 
missiles against the MRBM target launched out of PMRF. In this no-
notice test, the sailors on the consoles aboard a U.S. Navy destroyer 
again demonstrated the ability to conduct a critical terminal defense 
engagement in a ship-defense role. This test demonstrated improved SM-6 
Dual I performance and further increased fleet confidence in the 
deployed SBT capability.
    Sea Based Terminal Increment 2, which further improves our endo-
atmospheric defensive capabilities, is on schedule to be certified and 
operational in the 2018-2019 timeframe. We conducted a successful 
Critical Design Review for ship defense in April 2017 for the SM-6 Dual 
II Sea-Based Terminal defense interceptor and conducted missile and 
weapon system integration testing in 2017. The first intercept flight 
test supporting Sea Based Terminal Increment 2 is planned for first 
quarter of fiscal year 2019.
    We continue to support the European Phased Adaptive Approach as a 
U.S. contribution to NATO BMD, providing coverage and protection of 
NATO European territory, populations, and forces against the increasing 
threat of ballistic missile proliferation in the Middle East. 
Currently, there is an operational Aegis Ashore site located in 
Romania. NATO's BMD architecture also includes the U.S. contributions 
of a forward-based AN/TPY-2 in Turkey, four BMD-capable Aegis 
destroyers homeported in Rota, Spain, SM-3 interceptors, and a command- 
and-control node at Ramstein Air Base, Germany.
    In fiscal year 2018, we will continue our commitment to develop, 
test, and deliver global Naval capability to the Warfighter and support 
defense of our deployed forces and European NATO allies through 
supporting the operational readiness of EPAA Phase 2 and efforts to 
deliver Phase 3 to improve defensive coverage against medium- and 
intermediate-range threats, which includes delivery of the Aegis Ashore 
site in Poland. Aegis Ashore site construction in Poland began in 
fiscal year 2016. That site will be equipped with the upgraded Aegis 
Baseline 9 weapon system with BMD 5.1 and a capability to launch SM-3 
Block IIAs. This new SM-3 variant will support the EPAA Phase 3 
technical capability declaration. The Aegis Weapon System upgrades are 
further enhanced by spiral upgrades to C2BMC and AN/TPY-2 sensors, 
enabling Engage on Remote capability and extended defensive coverage 
for NATO Europe.
    Military construction (MILCON) delays due to an unsatisfactory rate 
of construction progress at the Aegis Ashore site in Poland will push 
the EPAA Phase 3 Technical Capability Declaration from December 2018 to 
CY 2020. Efforts by the Missile Defense Agency and the Army Corps of 
Engineers to mitigate the MILCON delays included creation of an onsite 
Poland Integrated Project Office to administer the MILCON contract and 
facilitate continuous and real- time assessment of the construction 
contractor's performance. Efforts also included the U.S. Government 
continuing to provide supplemental program leadership, subject matter 
experts and additional quality assurance personnel to Poland; proactive 
use of contractual incentives, establishment of joint weekly program 
updates with the MDA Director and Army Corps' North Atlantic Commanding 
General; and quarterly Flag and General Officer reviews onsite. Despite 
these efforts, by December 6, 2017, it became evident that it was no 
longer possible to mitigate MILCON delays through compression of, and 
concurrency between, the non-MILCON elements of the project. At that 
time, the government decided to rebaseline the project schedule given 
the likelihood of continued schedule erosion and the consumption of all 
margin. The rebaseline effort is on-going.
    MDA fiscal year 2019 budget request includes $15.0 million in 
Defense Wide Procurement and $27.7 million in Research, Development, 
Test & Evaluation (RDT&E) funds to address the multiple actions 
required to field Aegis Ashore in Poland and continued operations of 
other Aegis Ashore sites. Given the MILCON delays and the requirement 
to be on-site for at least another year, MDA's fiscal year 2019 budget 
request includes funding to complete combat system adaptation, 
integration, installation, and testing to ensure delivery of EPAA Phase 
3 capability to the warfighter. This capability ensures our ability to 
defend U.S. assets in Europe and meet EPAA Phase 3 commitment to our 
NATO allies. Given the successful efforts of controlling military 
construction costs, MDA does not anticipate a need to increase our 
MILCON budget in support of Aegis Ashore Poland.
            Command and Control, Battle Management, and Communications 
                    and Regional Sensors
    We request $475.2 million in fiscal year 2019 for the C2BMC. C2BMC 
provides persistent acquisition, tracking, cueing, discrimination, and 
fire-control quality data to Aegis BMD, GMD, THAAD, Patriot, and 
coalition partners to support homeland and regional defense. We 
continue to support Warfighter command, control and battle management 
needs across the globe by providing the Combatant Commander with the 
BMD planner, situational awareness tools, and battle management 
capability to support global BMD situational awareness, coalition 
operations, weapons release authority for homeland defense, and control 
and tasking of forward-based AN/TPY-2 radars and the LRDR radar. C2BMC 
operators and maintainers deploy forward in some of the world's hottest 
threat spots and continue to provide around-the-clock support to the 
local commanders.
    In fiscal year 2019, we will complete testing and deployment of 
C2BMC Spiral 8.2-3 and BMDS Overhead Persistent Infra-Red Architecture 
(BOA) 6.1, in support of EPAA Phase 3/Aegis BMD Engage-on-Remote 
functionality. Initial deployments will be to U.S. Central Command and 
U.S. European Command followed by U.S. Northern Command and U.S. 
Pacific Command providing enhanced tracking capabilities to the 
Warfighter. C2BMC also will initiate integration of a sea-based mobile 
sensor in the S8.2-3 timeframe that will provide enhanced tracking for 
emerging threats. We will continue development of C2BMC Spiral 8.2-5, 
which provides system level discrimination data, BOA 7.0 to provide 
advance threat warning capability, and threat characterization 
solutions and support command and control integration of the LRDR into 
the BMDS by 2021 to support a Robust Homeland Defense capability. C2BMC 
will initiate Increment 7 development tasks for command and control of 
the HDR-H radar and Robust Post Intercept Assessment supporting our 
homeland defense focus.
    We continue supporting incremental improvements to the BMDS to keep 
pace with emerging threats worldwide by investing in the development, 
integration and testing of advanced algorithms to improve track and 
discrimination capabilities and enhance the use of space-based sensor 
data from sources such as the Space Based Infra-Red System (SBIRS), 
using the BMDS OPIR architecture. C2BMC will update hardware/software 
to increase cybersecurity through implementation of the DoD 
Cybersecurity Discipline Implementation Plan--Four Lines of Effort. We 
are conducting over 63 cyber-focused C2BMC tests and assessments 
involving multiple agencies over the FYDP to ensure the system is 
cyber-secure.
    Finally, MDA continues to support the AN/TPY-2 (Terminal Mode) 
radars as part of a forward-deployed Terminal High Altitude Area 
Defense (THAAD) batteries in Guam and the Republic of Korea.
International Cooperation
    The fiscal year 2019 budget request includes funding for regional 
missile defense capabilities to protect deployed U.S. forces, reassure 
allies and partners, and build cooperative regional security 
architectures. MDA has engagements with over twenty countries and 
international organizations and is committed to expanding work with our 
international partners through joint analyses, partner missile defense 
acquisition decisions, cooperative research and development projects, 
deployment of BMD assets, Foreign Military Sales (FMS), and co-
production efforts.
    MDA continues to emphasize allied and partner investments in their 
own missile defense capabilities, which create more effective regional 
security architectures that complement U.S. regional missile defense 
capabilities. We continue to execute an FMS case with the United Arab 
Emirates for two THAAD batteries, including launchers, radars, and 
interceptors. Both batteries have been delivered to the UAE and have 
achieved Initial Operational Capability (IOC). MDA is actively engaged 
with several nations, particularly those in the Arabian Gulf region, to 
provide program information and cost data that may inform future 
decisions to procure THAAD and other missile defense systems. In 2016, 
MDA completed a regional Ballistic Missile Early Warning System 
architecture study for the Gulf Cooperation Council (GCC), analyzing 
sensor and C4I options for defense of the region. We are continuing to 
discuss the study's findings with the GCC nations. Additionally, MDA 
received a Letter of Request from the Kingdom of Saudi Arabia for seven 
THAAD batteries in April 2017. MDA is working with the Saudis to 
finalize the Letter of Offer and Acceptance.
    MDA has a strong cooperative missile defense partnership with 
Israel through our continued work with the Israeli Missile Defense 
Organization. MDA's fiscal year 2019 request is consistent with the 
funding Memorandum of Understanding that the United States and Israel 
signed in 2016. This budget continues MDA's longstanding support of 
U.S.-Israeli Cooperative BMD Programs, to include the co-development 
and co-production of the David's Sling Weapon System and Upper Tier 
Interceptor, and improvements to the Arrow Weapon System. The 
Department continues to support co-production efforts for the Iron Dome 
program to provide critical defense against short-range rockets and 
artillery.
    We continue to make progress with our Japanese counterparts on the 
Standard Missile-3 Block IIA (SM-3 Block IIA), our largest co-
development effort, which supports extended deterrence and establishes 
an important vehicle for closer defense cooperation ties. The 
development work remain on track for first delivery of the missile in 
the 2018 timeframe. The United States will deploy the SM-3 Block IIA to 
the fleet and at Aegis Ashore sites to improve and expand defenses 
against MRBM and IRBM threats. We are committed to delivering the SM-3 
Block IIA to meet global threat requirements and support EPAA Phase 3.
    Our fiscal year 2019 budget request also supports Allied 
participation in tests, exercises, and wargames.
                     addressing the advanced threat
    We must make investments in advanced technology today to prepare 
for tomorrow's threats by improving system performance and 
effectiveness. This budget request will continue the development of 
breakthrough technologies for integration into the BMDS, including 
discrimination improvements, Multi-Object Kill Vehicle technology, 
hypersonic defense technology, and high-powered lasers that have 
potential use against threat missiles in the boost phase of flight. We 
need to investigate solutions that reduce reliance on expensive kinetic 
interceptors. Scalable, efficient, and compact high-energy lasers could 
change future, missile defense architectures. By improving reliability, 
enhancing discrimination, and expanding battle space, I believe we can 
reduce the cost per kill. MDA is developing technology to address gaps 
in the BMDS and dramatically drive down the cost of defending the 
homeland.
    MDA requested $148.8 million for Technology Maturation Initiatives 
to conduct ground and airborne demonstrations of advanced sensor 
systems and refine directed energy technologies for missile defense. 
MDA is committed to developing and demonstrating directed energy and 
laser technologies that could be integrated into the BMDS, and we are 
actively testing a broad range of potential concepts, including both 
tracking and defensive lasers that could be deployed on a variety of 
platforms. Once we mature the required power, one potential concept the 
Agency is exploring is an Unmanned Aerial Vehicle-mounted laser that 
could destroy ICBMs in the boost phase at long standoff ranges. This 
concept requires precision tracking and a highly stable, lightweight, 
accurately pointed laser beam. We are currently testing a number of 
technologies to determine if this is a viable concept.
    We are operating MQ-9 aircraft outfitted with passive sensors to 
help us understand boost-phase intercept tracking and how an airborne 
layer could augment our existing sensor network. In 2019, we will add 
tracking lasers to these aircraft to increase precision and range and 
determine how these compact lasers could further influence sensor 
design. In addition, we are developing advanced sensors and testing 
them from ground sites to improve discrimination accuracy and validate 
performance against targets of opportunity. What we learn from these 
ground and airborne tests could influence future space-based sensor 
systems.
    We will complete three industry preliminary designs in 2018 of a 
multi-kilowatt class electric laser on a high-altitude airborne 
platform to demonstrate beam stabilization technology. In 2019 we will 
finish the design and begin fabrication of this first-of-a-kind system.
    We continue to advance the state of the art for scaling electric 
laser power in efficient packaging. Both Diode Pumped Alkali Laser and 
Fiber Combing Laser technology have the potential to meet missile 
defense requirements. In 2019, we will concentrate on compact component 
development at the national laboratories and work with Industry and the 
Services to investigate other promising laser technologies. Based on 
the results of these and other tests, we will work closely with the 
Department to determine the best way to integrate directed energy and 
laser sensing into the missile defense system.
    MDA requests $189.8 million for the Multi-Object Kill Vehicle 
(MOKV) effort to establish the technology foundation for killing 
multiple lethal objects from a single interceptor. The more kill 
vehicles we can put on an interceptor, the greater the raid capacity of 
our Ground- based Midcourse Defense system. MOKV has the potential to 
significantly enhance homeland defense capabilities at a lower cost per 
engagement against the threat. MDA competitively awarded contracts to 
three major prime contractors in 2017 to reduce the technical risk for 
MOKV product development. The MOKV Technology Risk Reduction effort 
will culminate with demonstrations of hardware-in-the-loop prototypes. 
Our current plan is for an MOKV demonstrated capability in the 2027 
timeframe.
    We request $120.4 million in fiscal year 2019 for the Hypersonic 
Defense effort to execute the systems engineering process, identify and 
mature full kill chain technology, provide analysis and assessment of 
target of opportunity events, and execute near term space sensor 
technology and multi-domain command and control capability upgrades to 
address defense from hypersonic threats. This effort will execute the 
Defense Science Board's recommendations to develop and deliver a set of 
material solutions to address and defeat hypersonic threats informed by 
a set of near-term technology demonstrations. An integrated set of 
enhancements will provide incremental capability measured by progress 
and knowledge points in the following areas: establishment of systems 
engineering needs and requirements to identify alternative material 
solutions; execution of a series of sensor technology demonstrations; 
modification of existing BMDS sensors and the C2BMC element for 
hypersonic threats; and definition of weapon concepts and investments 
in key technologies to enable a broad set of solutions, including 
kinetic and non-kinetic means.
    MDA requests $20.4 million for the Advanced Research Program to 
continue capitalizing on the creativity and innovation of the Nation's 
small business community and academia to enhance the Ballistic Missile 
Defense System. Advanced Research conducted research and material 
solution analysis to identify initiatives and technology to include 
missiles, sensors, and command and control components in the defense 
against current and future threats. We are fostering cutting edge 
research between U.S. and foreign universities of allied nations 
through international cooperative technology development projects.
    We request $13.0 million for the Advanced Concepts & Performance 
Assessment effort, which centralizes advanced technology concept 
modeling, simulation, and performance analysis and delivers independent 
assessments of government, university, and industry technology concepts 
that, along with systems engineering requirements, support acquisition 
strategy decisions and define our technology focus areas.
    We also will continue to support trade studies, systems 
engineering, modeling and simulation, and prototype design for a 
potential space-based missile defense architecture.
                               conclusion
    Mr. Chairman and Members of the Subcommittee, in closing, our 
fiscal year 2019 budget funds comprehensive missile defense development 
efforts, including several critical capabilities required by the 
Warfighter. We will continue to increase the reliability as well as the 
capability and capacity of fielded homeland and regional missile 
defense systems and make measured investments in advanced technology to 
counter the adversary missile threat.
    Based on the current capacity of the North Korean threat, both the 
type and the amount of missiles that they possess, we can protect the 
continental United States and Hawaii today against an ICBM. However, as 
the threat increases in size and lethality, we need to ensure that our 
systems are reliable and our ballistic missile defense capability and 
capacity keep pace with that threat. With its fiscal year 2019 
President's Budget request, MDA will support the National Defense 
Strategy with the continued development and deployment of an 
integrated, layered missile defense system to defeat current and 
projected missile threats, allowing the nation to compete, deter, and 
win.
    We must evolve our missile defense capabilities to outpace growing 
and increasingly complex threats. The addition of another Fort Greely 
Missile Field and twenty GBIs to the operational inventory will address 
the increasing numbers of threat missiles we may have to counter 
against the homeland. Sixty-four GBIs and urgent improvements in sensor 
coverage, to include the addition of a Medium Range Discrimination 
Radar and advanced discrimination improvements, will enable the United 
States to improve protection of the country. This budget request also 
will help grow the number of THAAD and SM-3 Block IB interceptors 
available to the warfighter to improve regional missile defenses.
    Continuing the approach employed by my predecessors, I am 
completely committed to MDA's audit process to demonstrate our careful 
stewardship of the resources provided us. I am equally committed to 
MDA's full transparency in our engagements with the congressional 
defense committees, the Government Accountability Office, and 
Department's Inspector General.
    I also would like to recognize the brave men and women who serve in 
our Armed Forces at home and abroad and who operate the BMDS. Our 
Nation is fortunate to have such a capable fighting force.
    I appreciate your continued support for MDA and this critical 
mission, and I look forward to answering the committee's questions. 
Thank you.

                           NORTH KOREA THREAT

    Senator Shelby. Thank you, General. As you mentioned in 
your prepared testimony, North Korea has conducted over 40 
missile test launches in just the last 2 years, and recently 
displayed five ballistic missile systems. As much as you can in 
this setting here, could you explain how the threat from North 
Korea is advancing and describe the importance, General, of 
improving and expanding our homeland missile defenses?
    General Greaves. Yes, Mr. Chairman. My bottom line is it is 
one of the top three priorities of the Agency to address the 
advanced threat. And when I say the threat has voted, that's 
exactly what I'm referring to, the fact that North Korea has 
done a lot more than just talk or claim, they have demonstrated 
advanced capability. And 40 missile launches over 2 years, some 
were failures, some were not failures, is a clear 
demonstration, combined with what's been said from the North 
Korean leadership, it shows direct intent to do harm to the 
United States and its allies.
    So addressing the advanced threat, that is the primary 
reason, I believe, for the acceleration of the funding 
requests, to help meet that threat in the future, to include 
the additional capacity, such as the additional missile field 
up in Greely, the focus on not only the hypersonic threat, but 
moving our sensors to space, the additional THAAD units, and 
everything else we've requested.

                              IRAN THREAT

    Senator Shelby. Moving over to Iran now because down the 
road a lot of us believe they pose a missile threat and 
probably a nuclear threat. Iran has an ambitious ballistic 
missile and space launch development program, as you know. Its 
progress suggests to a lot of us that they're on a technical 
path to develop an intercontinental ballistic missile. Could 
you, in this setting, and if you can't do it here, can you 
update us on where we're going there, and where do you think 
they're going?
    General Greaves. Mr. Chairman, I entirely agree with you. 
Iran has direct intent to deliver and make operational an ICBM 
capability, and they're doing it not only through their missile 
launch activity, but through their space launch activity. 
Today, as a reminder, the current Ballistic Missile Defense 
System does protect us, the homeland, from threats from North 
Korea and Iran, but as the Iranian threat, along with the North 
Korean threat, becomes more complex as far as what they present 
to the Ballistic Missile Defense System, our system needs to be 
upgraded to meet that challenge.

                            SM-3 IIA UPDATE

    Senator Shelby. You referenced the Aegis Ashore system. 
Could you give us an update on the SM-3 Block IIA interceptor 
that we've developed, you've developed, with Japan? And when is 
the next planned test? I know you had a little mishap there, 
but--maybe a big one, but a lot of people believe that's a 
sound system.
    General Greaves. I actually--Mr. Chairman, I actually 
agree. That's a very sound system. And the test experience, 
I'll discuss in a few seconds here, is but one of many 
different experiences that we've had, positive experiences 
we've had, with that system. It is an extremely capable 
interceptor as part of the Aegis Weapon System, it is even more 
capable than the IB or the IA.
    Senator Shelby. Was that a mechanical problem? Was that a 
decoupling problem? Was that what that was? Or what?
    General Greaves. The Failure Review Board is ongoing, so I 
would--I would not want to preempt the result, but I've got 
access to all the data from that review. And we believe that we 
understand a specific component that did not function as 
designed, and we are taking steps to correct that.
    Senator Shelby. The missile itself you believe is very 
sound, though.
    General Greaves. The missile is sound. It's flown 
successfully four out of five times.
    Senator Shelby. Oh, yes.
    General Greaves. It's flown past the point where the 
incident occurred. We exonerated most of the booster and kill 
vehicle stages as far as the flight test. And a number of very, 
very significant achievements were accomplished during that 
flight test, that Flight Test Maritime 29 test, earlier this 
year. We were able to demonstrate engage-on-remote using a 
separated sensor to collect data and provide engagement quality 
data back to the Aegis Weapon System to control that missile. 
We were able to verify that we can launch safely from Aegis 
Ashore, which is a tremendous item that Romania, Poland, and 
potentially Japanese, if they follow through with their Aegis 
Ashore purchases, are concerned about, so that was very 
successful.
    The missile--the component that we're concerned about has 
flown successfully 9 out of 10 times. So as of now, I am not 
concerned that it is a true design issue, and we're following 
through to identify the problem and then correct it. And the 
next test will be before the end of this calendar year.

                         UNFUNDED REQUIREMENTS

    Senator Shelby. Getting into funding, we've already talked 
about it just a little, Congress appropriated in 2018 $11.5 
billion for the Missile Defense Agency, which is greater than 
5--greater than $3 billion above the initial request by the 
President. For this year, MDA's request is $9.9 billion. And 
it's my understanding you've identified $1.3 billion in 
unfunded requirements.
    General, what technology areas would you recommend, if you 
want to recommend, this committee consider in prioritizing 
these areas?
    General Greaves. Sir, the first thing I will need to say 
again is that I do support the President's budget and that 
unfunded list was in response to a request to see where I would 
spend my next dollar. And in that list, the top priority that I 
laid out for the Agency is to improve our sensor capability and 
move that sensor capability to space to primarily address the 
hypersonic threat, which we see is coming, as well as what we 
refer to as dimmer targets. The space sensor area, the missile 
defense tracking system, the MTS is the number one priority on 
there. The second priority is to support the commander in 
Korea, General Brooks, with an emergency operational need to 
essentially integrate THAAD and Patriot into his command and 
control battle management system to optimize use of those 
interceptors, and then things like laser scaling.
    As an example, we're going after--we are serious about 
going after the technology to determine if a boost-phase 
intercept is a reality, and one way to do that is through 
directed energy. And the first thing we need to do is determine 
whether or not we can successfully scale up into the half a 
megawatt to megawatt class lasers to do that job. So those are 
the key technology areas, plus cybersecurity and some other 
areas on that list.

                           HYPERSONIC THREAT

    Senator Shelby. Do you believe we're on track as far as 
funding dealing with hypersonic missile defenses?
    General Greaves. I believe we will be. My new boss, Dr. 
Mike Griffin, the USD(R&E), he's laid that out as his top 
priority. And I've already had several meetings with him, and 
he's provided clear direction at the Department, and he's 
looking at me, as the Missile Defense Agency, on the defense 
side to develop plans and capability to meet that threat. And 
hypersonics is front and center for that capability.
    Senator Shelby. Senator Durbin.
    Senator Durbin. General Greaves, good to see you again. I 
mentioned to you in our meeting yesterday, I'd like to, on the 
record, ask for your response. Clearly, underfunding national 
defense is a mistake. I worry as well about providing more 
funds than you can responsibly allocate and spend. Last year, 
the fiscal year 2017 appropriation for the Missile Defense 
Agency was $8.2 billion. This year it's $11.5 billion. That's 
almost a 40 percent increase. That's a dramatic increase for 
any agency.

                   FISCAL YEAR 2018 FUNDING EXECUTION

    My experience, many years on appropriations committees in 
the House and Senate is that in our haste to spend massive 
increases, we do foolish things, and you find yourself many 
times in a situation where taxpayers' dollars can be wasted, 
which none of us want to see because it certainly is not fair 
to those we're responsible for in terms of spending the money, 
but it also damages the reputation of your mission.
    Tell me how you, in fiscal year 2018, will spend this 
dramatic increase in a way that doesn't run into those hazards.
    General Greaves. Vice Chairman Durbin, thank you for the 
question. I will tell--let me start with the March memo that 
Secretary Mattis sent out where he asked us to be stewards of 
the taxpayers' dollars and essentially manage every dollar as 
if it was our own. I made that a mandatory requirement for 
every single person in the Agency, on government--on the 
government staff to read that and understand this is what 
direction is coming from the top, it's not business as usual.
    The other thing I'll point out is that one of my previous 
jobs was as the programmer, the budget guy for Air Force Space 
Command working for General Shelton. I will tell you that it's 
been my track record to treat that funding as though it's my 
own and to ensure that the folks that work for me are spending 
every dollar the way it should be spent, and then I follow up.
    The example I can provide is the $2 billion that was 
provided as part of the budget amendment. I am tracking the 
obligation and then ultimately expenditure of that funding by 
industry weekly and reporting it up the chain within the 
Department of Defense.

                            EAST COAST SITE

    Senator Durbin. Let me ask you this related question to 
expenditures. There is some support for the notion of building 
an East Coast ground-based missile defense site. I think it is 
premised on the belief that that is the only way to adequately 
protect the United States from a missile attack from Iran. Are 
the existing GMD (Ground-based Midcourse Defense) sites in 
California and Alaska capable of protecting the United States 
from an Iranian ICBM?
    General Greaves. Mr. Vice Chairman, the answer is yes 
today. What an East Coast site will bring us is additional 
capacity and capability if that threat matures to the point 
where the Department decides that we should request funding to 
proceed with development of that site.
    Senator Durbin. So where does this new East Coast-based 
missile defense site rank in your priority list?
    General Greaves. Let's see. Today, it's--we've done the 
work to prepare for that decision. If that decision is made, we 
will review our priorities and rank it appropriately based on 
the threat.
    Senator Durbin. Well, given choices, and that's what you 
have to make in your role here, between $4 billion on better 
sensors versus building an East Coast ground-based missile 
defense, what's your choice?
    General Greaves. Today, without the Iranian threat being 
where it needs to be for us to recommend the CONUS interceptor 
site, it will be to improve the sensor layer. We must improve 
the sensor layer, period, my opinion.

                            ISRAELI PROGRAMS

    Senator Durbin. The Israeli cooperative programs that we've 
been engaged in is--provides them with missile defense in their 
backyard. And please update our committee on the status of Iron 
Dome, David's Sling, and Arrow programs.
    General Greaves. Sir, I will say that each one of those 
systems is executing its intended mission. I will tell you I 
was over there a few months ago and had a chance to see the 
Iron Dome operators at work, and it's providing daily defensive 
capability for the State of Israel. Arrow 3 and Arrow 2, 
David's Sling, those are also progressing. Arrow 3 has been 
delivered to the field. We are supporting Israel in their 
testing.
    I will tell you that we are both learning from each other. 
They have a much, much higher risk tolerance today than we do 
for most of our testing primarily because of where they live 
and the threat that they're under, which is very, very, very 
immediate and close.
    Senator Durbin. Well, let me tell you one thing we've 
learned. Iron Dome's Tamir interceptor cost $96,000. Our 
Patriot MSE missile cost $4 million. Is the Army--I want to ask 
you, should we consider integrating Tamir into the Patriot 
system?
    General Greaves. We should consider it, but I will say that 
those two interceptors have a different requirement space as 
well as set of capabilities. And the advantage of Patriot today 
in our system is it's well integrated with THAAD to take care 
of the lower tier defensive capability. But we should--and I 
believe we started looking at that a while ago. But we should 
look at that.

                          AEGIS ASHORE POLAND

    Senator Durbin. General Greaves, Aegis Ashore seems to be 
progressing well with the successful turnover of the Romanian 
site to the Navy in 2016. However, construction issues with the 
site in Poland are delaying the scheduled operational date for 
2 years, from 2018 to 2020. Can you tell me the cause of the 
delays and whether you're concerned about a capability gap in 
missile defense for Europe as a result of the delay?
    General Greaves. Correct. The cause of the concern is what 
we believe to be less than expected performance from the 
construction contractor. We are working up through the Deputy 
Secretary of Defense with the CEO of that company to improve 
performance. And there was also a contributing factor of the 
weather over in Poland. The last 5 months I've heard it's been 
the worst it's been at least in the last 5 to 10 years, and 
that's caused some delays, lots of rain.
    But a combination of a slow ramp-up in manpower resources 
as well as the weather I believe has contributed to it. But we 
are as actively engaged as we can with that contractor to--
through the Corps of Engineers, to improve performance.
    Senator Durbin. But are you concerned about the capability 
gap in missile defense for Europe as a result of this?
    General Greaves. Based on the threat, I am not as concerned 
as I would be if the threat was a little higher.
    Senator Durbin. Thank you very much.
    Thanks, Mr. Chairman.
    Senator Shelby. Senator Blunt.
    Senator Blunt. Thank you, Chairman. Let me join Senator 
Durbin in welcoming you to chair this committee. I think 
particularly on this topic, Mr. Chairman, the Alabama role in 
missile defense and space issues is important, and your 
understanding of what happens at Redstone and Huntsville at a 
time when I think it's obvious from the conversation today that 
this is going to be a more critical discussion of this 
committee and our defense capabilities.

          TERMINAL HIGH ALTITUDE AREA DEFENSE IN SOUTH KOREAN

    And General Greaves, it's good to have you here. On the 
deployment of the Terminal High Altitude Area Defense system, 
the THAAD system that was announced in 2016 in Korea, we have 
support there from the South Korean government still, but it's 
met with some questions. What is your view of the timeframe 
right now for deployment of THAAD on the peninsula?
    General Greaves. Mr. Senator, it's deployed today.
    Senator Blunt. It is deployed today----
    General Greaves. Yes.
    Senator Blunt  [continuing]. And still supported by the 
host government?
    General Greaves. Yes, sir.
    Senator Blunt. And will that be--do you have any reason to 
believe that's going to be part of any ongoing discussion about 
what happens on the peninsula with weapons?
    General Greaves. I do not personally know.
    Senator Blunt. On the--while we're on Korea, do you still 
believe that there is a constant working relationship between 
North Korea and Iran on the missile programs?
    General Greaves. I have read press reports to that effect, 
sir, yes.
    Senator Blunt. Well, I have, too, and it appears that they 
rely on North Korea for at least some of the production for 
what they're doing in missiles. Your comment earlier I think 
was that we would believe that Iran is clearly on a path toward 
having a nuclear weapon unless somehow that government would 
dramatically change?
    General Greaves. Mr. Senator, absolutely, yes, and my 
concern, based on the mission, the current mission, of the 
Agency is primarily towards rogue nations, North Korea and 
Iran, but it also extends to technology, which, as I call it, 
that may leak into those two countries and then produce 
capability that's leapfrogged or significantly ahead of what 
they currently have today. So it's a combination of those two 
concerns.

                        ARTIFICIAL INTELLIGENCE

    Senator Blunt. So on another topic, in the context you can 
discuss here, China is making an incredible investment in 
artificial intelligence. What concerns should that create for 
our weapons systems generally and the systems you're 
responsible for specifically?
    General Greaves. I believe a significant concern in that 
the more they can automate and have machine recognition of 
defensive architectures, defensive capability, the faster their 
decision speed is, and the more capable their systems are. So 
we are also looking at options for integration of artificial 
intelligence capability into our defensive systems. But it is a 
significant concern of what the Chinese are doing and what 
products from that technological effort that could leak into 
rogue nations like North Korea and Iran, for which our Agency 
is set up to defend against.
    Senator Blunt. And maintaining an advantage in both 
encryption and protecting encryption and penetrating other 
systems would continue to be one of our goals?
    General Greaves. Yes, sir.

                            ISRAELI PROGRAMS

    Senator Blunt. I think it's something we're going to, in 
other settings, talk even more about.
    And on Iron Dome, David's Sling, and the Arrow systems, if 
I understood your earlier response to Senator Durbin's 
question, that the Patriot system intercepts at a different and 
higher level, would that mean we shouldn't consider also adding 
to our system, THAAD, Patriot, an interceptor more like what 
we're seeing in our cooperative efforts with Israel?
    General Greaves. Mr. Senator, we should always review and 
assess additional capabilities that we can integrate into the 
Ballistic Missile Defense System. The Israelis have their 
layered concept. We have our layered concept, which our layered 
concept, I'll speak on that, Patriot, THAAD, Aegis, GMD, they 
overlap for a reason, to provide redundancy at those inflection 
points between the classic separation of those systems. But we 
should be looking to see, based on resources and priorities, 
whether or not we could integrate some of those capabilities 
into our Ballistic Missile Defense System.
    Senator Blunt. Would that system, in your view, compete 
with the Patriot system or add yet another level of defense in 
addition to the Patriot system?
    General Greaves. It, at a minimum, will compete, and if you 
take its capability out a little further, it will contribute. 
It will be another layer, another redundant system that we can 
use to provide BMD capability.
    Senator Blunt. And just to remind us once again of the 
value of that cooperative effort with Israel, is there any 
similar way we could learn what we've learned in that 
cooperative effort that we've had with Israel on that level of 
missile defense?
    General Greaves. Not in my opinion, Senator. It's----
    Senator Blunt. Thank you.
    Thank you, Mr. Chairman.
    Senator Shelby. Senator Reed.

                        REDESIGNED KILL VEHICLE

    Senator Reed. Thank you very much, Mr. Chairman.
    Thank you, General, for your service. And you are in the 
process now of trying to accelerate the fielding of the 
Redesigned Kill Vehicle, the RKV. And in the defense bill, the 
Defense Authorization Act of 2015, we put in a ``fly before you 
buy.'' That has become ``fly before you field'' because you're 
trying to move this along quickly.
    Can you describe what the difference is, how we can assure 
reliability for the system? We've had a lot of experiences in 
MDA prior to your arrival of systems that were very expensive 
and ultimately not deployable because they just didn't work 
very well. So can you give us a sense of how you're going to 
handle the RKV issue?
    General Greaves. Yes, Mr. Senator. I will start out by 
saying that we paid special attention to that language to 
adequately assess and test elements of the BMD before final--
final decisions to deploy and operate. And it is an engineering 
task. It is an acquisition task, to balance the capability that 
you plan to deliver with the threat situation at the time, and 
credibly--and I'm sincere about this--and credibly deliver an 
acquisition strategy that meets both if you can do it.
    In this case, for the RKV effort, what we've worked with 
the Department is a gated--it is a milestone-driven, it is a 
multi--it's a sequential decision point based on achievement 
acquisition strategy. So we have not been given carte blanche 
to go spend every single dollar and deliver the RKV as soon as 
we can.
    As an example, the first decision point was to get support 
and authorization to spend $56 million to do long lead for the 
first set of boosters. What we did was look at what the $56 
million would buy us and what percentage of the articles 
covered by that $56 million were either--had either flight 
experience, lab experience, ground test experience, and what we 
found out is of that $56 million, I think it was 1.8 of that 
$56 million was--was new.
    So after the engineering team, to include me, after we 
looked at whether or not it was the right thing to do, I 
decided and received support from the Department to move ahead 
with that. The same thing is going to happen when we get to 
Decision Points 2 and 3. They're going to be gated by flight 
tests. The first is the controlled test vehicle 03+ where we 
will fly the RKV against a target and purposely not intercept 
because intercept tests only give you a point solution, point 
experience. We will fly into the box and then exercise it 
against the larger performance box to gain performance 
experience on the round itself and on the system, and that will 
guide the second decision and likewise the next intercept test 
later, so----
    Senator Reed. And just because this raises a question, if 
you reach a point where the system is not performing, what is 
your obligation to go forward and buy the system? I mean, 
that's usually the problem we face.
    General Greaves. Right.
    Senator Reed. We have a system that doesn't work, but we 
have a contract and we've got to buy the thing anyway. Are you 
in that position?
    General Greaves. No, sir. In fact, the RKV is 62 percent, 
the way we calculate it, reuse, experience with new components 
making up the rest. We were successful in getting 
administration support for acceleration of the qualification 
program for those new components, the ground testing for those 
new components, to reduce that risk. So it's not the--and this 
is really important. It's not the Missile Defense Agency being 
given dollars and say, ``Go out and spend it and then come tell 
me when you're done.'' Dr. Griffin, Ms. Lord, up at that level, 
as a minimum DOT&E (Director of Operational Test and 
Evaluation), others will be reviewing what we're doing.

                                 CYBER

    Senator Reed. Let me shift gears for a bit. Cyber is the 
number one topic in every conversation I have with anyone in 
the building. So that raises the question, what are you doing 
with respect to hardening your systems with respect to cyber? 
Working with DOT&E? Because they've been somewhat critical of 
the cyber capabilities of MDA.
    So can you give us an idea of what you're doing, and also 
how you're cooperating with the Navy in terms of Aegis and the 
Army in terms of Patriot and THAAD and other systems, so it's 
not just the ground-based system which is being cyberproofed, 
it's everything?
    General Greaves. Let's see, the Agency is working very 
closely with General Behler over at DOT&E, Mitch Crosswait over 
there, the entire staff, to assess our cyber preparedness and 
any actions we need to take in the future. One of the major 
things we're doing, we developed these cyber assistance teams 
that the Agency took the initiative 1 or 2 years ago to send 
these teams into our major primes and assess their readiness, 
their cyber readiness, and make recommendations on how to 
change.
    We're also working very closely with DOT&E on our cyber 
vulnerability testing that we're doing, our adversarial testing 
that we're doing. And I will tell you, this is a learning 
process for, I think, the Nation as well as the Missile Defense 
Agency on the importance of addressing the cyber threat. I 
remember, you know, 2008, 2009, you really couldn't get anyone 
to do a password that was strong. I mean, people didn't really 
take it seriously. Today it's very different. Today it's one of 
the top priorities within the Agency to assess our cyber 
readiness, test for vulnerabilities, and request resources to 
fix them.
    Senator Reed. Let me follow up quickly because yesterday we 
had your colleague in the Air Force, the Transcom commander, 
and he was very eloquent about how the civilian components, the 
aircraft, the shipping industry, some of them are very 
sensitive to cyber and some are totally dismissive, or at least 
not as appropriate.
    Are you finding in your contractor base, your private 
contractors and subcontractors, a kind of sensitivity to cyber 
issues, protecting intellectual property, you know, searching 
their systems constantly for intrusions? Do you find that, or 
are you finding something less enthusiastic?
    General Greaves. I'd say the top tier absolutely they're 
serious about defending their systems from cyber intrusions. 
Second tier, third tier, that's where the concern is, and it 
gets into the expense, from their perspective, of adhering to 
the maturing cyber requirements within the Department versus 
working with us or going somewhere else with their business.
    Senator Reed. Yes. The problem, of course, is our 
adversaries recognize that the back door is usually open, and 
that's the second tier, and they're probably there 
unfortunately.
    General Greaves. Yes, sir. But that is not precluding us 
from digging deep within the second and third tier contractors 
to identify where that risk is and make recommendations and 
stronger action, if required, through the primes to get things 
fixed.
    Senator Reed. Thank you, General.
    Thank you, Mr. Chairman.
    Senator Shelby. Senator Moran.
    Senator Moran. Mr. Chairman, thank you. Let me join my 
colleagues in congratulating you on your ascension, and I look 
forward to working with you----
    Senator Reed. I forgot to congratulate you, sir.
    Senator Moran. I didn't hear what Senator Reed said.
    Senator Reed. I said I forgot to congratulate you.
    Senator Moran. Oh.
    Senator Reed. I'm sorry, Your Honor, Your Reverence, Your--
--
    [Laughter.]
    Senator Moran. Any words you didn't use, I would use, Mr. 
Chairman. We're delighted to work with you and this 
subcommittee and on the full committee, and I look forward to--
one of my goals has been to make sure that we do everything we 
can to get the United States Senate to function. The 
appropriations process is key to that, and I know you are 
committed to doing that, and I want to be your ally.
    General, thank you for the time that you--generous time 
that you devoted to me and my staff yesterday. Many of my 
questions we addressed in that setting. Senator Durbin raised 
one of the topics. My staff tell me in my absence he asked 
about the Aegis Ashore site in Poland, and I just would add my 
concern. This is a bit of my past role as chairman of MilCon 
and the ability to get these projects done on time. Two years 
down the road, that's a problem I assume in Europe, but if it 
was elsewhere, it may be even more of a problem, and I would 
encourage you to tell us and for you to pursue every 
opportunity to get the Army Corps of Engineers and others to do 
their work in a way that brings these projects in on time. And 
having not heard Senator Durbin, but trusting his judgment, I 
associate myself with what he had to say about this comment--
about this topic. Thank you.

                                  F-35

    Let me turn to the F-35 ballistic missile defense mission. 
General, how does MDA's ballistic missile defense mission 
benefit from the F-35 platform and the Air Force's F-35 
Distributed Aperture System? Are there opportunities for 
synchronizing this concept with other platforms and industry 
partners in developing technologies for the F-35 today?
    General Greaves. Thank you, Mr. Senator. We see that 
deployed capability as a--if not a game-changer, a significant 
contributor to future ballistic missile defense capability. As 
I was talking with the Under Secretary for Policy, Secretary 
Rood, he suggested, and I immediately agreed with him, that 
just about any AOR that we would need to deploy to, to mitigate 
a conflict, platforms such as the F-35 will be present.
    Platforms with significant capability, you mentioned the 
DAS, and our job is to look outside of the classic missile 
defense system, the THAADs and the LRDRs (Long-Range 
Discrimination Radar) and the UEWRs and the Cobra Dane Radars, 
and look for sensors or shooters that would be able to 
contribute, when integrated, into the BMDS, and we see the F-35 
as one such platform. And we have been working with the Air 
Force for the last--at least the last few months. And then we 
did a test with them a few years ago on that platform to 
demonstrate that capability.
    The concept is any shooter, any sensor, connected with our 
Command and Control, Battle Management system to mitigate some 
or part of the threat. So those platforms are likely going to 
be where the conflict is in significant numbers, large numbers, 
and the opportunity we have is to leverage, as an example, that 
sensor capability, integrate it with other sensors and BMDS 
sensors, and then provide engagement quality information to our 
interceptors. So it's a tremendous potential that we're going 
after.
    Senator Moran. If we looked at a timeline, how would you 
see things develop over the future?
    General Greaves. Let's see. I'd say 6 to 7 years to 
essentially work the concept of operations, which is not my 
area, that's for the combatant commander. The resource--
dedication of those resources to some or part of the BMDS 
mission, that's a service issue to go work. But working with 
them to not only develop the capabilities if it's sensor-based 
or if it's a new fast missile that's hung on the end of a--the 
bottom of an F-35 to do the BMDS mission, integrate those 
capabilities, test them, and deliver them into the theater for 
operations.
    Senator Moran. General, thank you. I'm going to submit to 
you for your written response issues related to MDA's need 
for--or your evaluation for need for future-based launch 
services. And we had a bit of that conversation yesterday. And 
I'll just submit that in writing and ask that you respond to me 
and the subcommittee.
    General Greaves. Yes, Mr. Senator.
    Senator Moran. Thank you for your service, and thank you 
for your testimony.
    Thank you, Mr. Chairman.

                            DIRECTED ENERGY

    Senator Shelby. General, just following up on a thought, 
concentrated--area of concentrated energy, lasers and so forth, 
there's a lot of research going on all over the world, 
especially with us, too. But that's a very promising area, is 
it not, dealing with defense?
    General Greaves. Yes, Mr. Chairman. And there's a lot of 
research going on in the directed energy laser area, but the 
question--the next question I always ask when that discussion 
comes up, which power region are you in? Are you in a low 
power, 5, 10 watts, you know, 1 kilowatt, or are you on the 
right end----
    Senator Shelby. You've got to have the power.
    General Greaves. You've got--you've got to have the power, 
sir.
    Senator Shelby. So it's not an abstract concept, is it?
    General Greaves. No, sir. We've done the studies. We know 
how much laser energy on target we need to affect for both 
liquid versus solid missiles, and it's a different power level. 
But we've got to do the technology work, in my opinion, to 
demonstrate that capability.
    Senator Shelby. But we've seen a lot of hope and promise in 
that area, have we not?
    General Greaves. Yes. And the concepts in the past were 
somewhat limited by technology. Take the Airborne Laser 
program, 40,000 feet in the atmosphere, massive beam control 
issues or challenges with that program, as well as how many 
shots it can take and its flexibility. Technology has 
progressed. We're now working with fiber combined lasers, 
diode-pumped alkali lasers, working also at a lower level on 
the platforms that would have to deploy these lasers, higher 
altitude----
    Senator Shelby. It's key, isn't it?
    General Greaves. Yes, it's one of the keys. Beam stability 
at the 60,000-foot-plus level.
    Senator Shelby. Do you believe you have enough resources to 
continue in that area? Is that an area that's underfunded or is 
funded adequately? Or what do you--do you want to get back with 
us on it or what?
    General Greaves. I would love to get back with you on it, 
Mr. Chairman, but the bottom line is we will need additional 
funding if that remains a priority for the USD(R&E), which I 
believe it is, and I believe we should see that as----
    Senator Shelby. When you're doing R&D, you want to put your 
forces--I mean your resources in areas where there is promise, 
though, don't you?
    General Greaves. Yes, Mr. Chairman.
    Senator Shelby. But you've got to prove it.
    General Greaves. Yes, Mr. Chairman.
    Senator Shelby. Senator Durbin, do you have any----

                           HYPERSONIC THREAT

    Senator Durbin. Since we have a minute here, and Senator 
Shelby has opened this door about new technology, could you 
comment on the hypersonic--use of hypersonic vehicles and other 
craft, and whether that is the future or whether we have 
defenses we are considering against it, as much as you can say 
in open setting?
    General Greaves. Yes, Mr. Vice Chairman. I will tell you 
that I'm not a fortune teller, but I know the future. I know 
that hypersonic--the threat is real and it's coming. Just the 
open press reports on what the Russians and Chinese have been 
doing in that area for the last 5 to 10 years should be cause 
for concern. And so it's just a matter of time before they have 
fully developed that capability and operationalize it. And 
although we, in the Missile Defense Agency, are not designed, 
set up, mandated, to defend against, you know, throngs of 
missiles coming from Russia and China, the concern is that 
technology leaking into the space that we have to deal with, 
rogue nations and North Korea and Iran.
    And it starts with sensing. It starts with birth-to-death 
tracking of that maneuvering target. For a ballistic missile, 
it flies pretty much from the ground into space and then back 
onto the ground. The hypersonic threats that we're envisioning 
will fly at a much lower altitude, closer to the real 
atmosphere, maneuver in the atmosphere, and then get to the 
target. So unlike a ballistic missile, where you can--or a 
threat missile where you can--you can fairly with certainty 
predict, depending on where it's launched from, what direction 
it's going in, how high it gets, where it's going to land, with 
these maneuvering threats, you must maintain custody from--from 
birth to death. Plus with the concern with the more complex 
countermeasures that these threats will produce to confuse our 
defensive systems, the ability to maintain that custody becomes 
even more important.
    So once you've developed an acceptable, robust, if you want 
to call it, sensing architecture, then the other side of the 
equation, the interceptor piece, do we need a new faster 
interceptor to combat the hypersonic threat? Does our command 
and control system, does our CONOPS (Concept of Operations) 
need to change? Which the answer is yes. Force projection needs 
to change? The answer is yes.
    So that's all doable, but the longer we wait, the harder it 
gets.
    Senator Durbin. Thank you.
    Senator Shelby. Senator Daines.
    Senator Daines. Thank you, Mr. Chairman. And 
congratulations on assuming the duties of the chair, both here 
and on the full committee.

                              NORTH THREAT

    Lieutenant General Greaves, thank you for your testimony 
today, and thank you again for your service to our great 
Nation. I was just in South Korea the week before last, had an 
excellent brief from General Brooks. We also had a chance to 
peer in North Korea from the Yalu River. We were up there in 
Shenyang and then came down to Dandong, and I had four other 
Senators with me, and just again, the sobering view and 
reminder of the threats that we face today and why we're here 
today on this very important topic.
    Last year, as you know, North Korea made significant 
advances in its ballistic missile technology, including two 
ICBM missiles that are capable of hitting the United States, 
and testing a nuclear warhead that's reportedly 10 times 
stronger than we dropped on Hiroshima. Congress responded by 
providing $2 billion in additional funding to expand our 
defensive options and to accelerate new technologies. I 
appreciate the opportunity to discuss how those funds are being 
used to improve the safety of the American people.
    Perhaps our strongest deterrent against military action by 
North Korea is America's robust nuclear triad. As of July 2017, 
our entire ICBM force is now within North Korea's reach, and 
that's a sobering thought. Speaking as somebody who has a third 
of those ICBMs that we have in our Nation in my home State of 
Montana, and although a strike on our homeland would result in 
the assured destruction of his regime, who can say when Kim 
Jong-un might take a shot?
    General, I understand that many of the investments Congress 
is making today may not result in stronger defenses until 2023. 
Are we keeping pace with North Korea's threat, or are we too 
saddled by regulation and institutional inertia?
    General Greaves. Mr. Senator, I'll answer those two 
questions. I believe we are keeping pace, and it's due to the 
support that this mission area has received within the 
Department of Defense, within the administration, and 
especially over here within the Congress. And I mentioned 
earlier that the demonstration of that commitment was no 
clearer than the fiscal year 2017 above threshold reprogramming 
as well as the budget amendment that you mentioned. That was a 
clear indication of the seriousness of which this Congress is 
taking this mission area.
    We are keeping pace, but it will require continued focus by 
all the elements I mentioned to deal with the advanced threat 
that we see now projected within the 24, 25 area. We can defend 
the Nation from a North Korean threat and an Iranian threat 
today, but as their capability becomes more lethal and more 
numerous and more complex, we need to do the things that we've 
laid out in the budget to include increasing our sensor 
capability, increasing our command and control capability. You 
mentioned--you mentioned Korea. THAAD and Patriot share the 
terminal defense portion of the layered missile defense, doing 
things to increase the interoperability between those--those 
two systems----

                              FORT GREELY

    Senator Daines. General, we stopped on the way over. We had 
to have some crew rests and refueling at Elmendorf-Richardson 
on the way over, and I had a chance to chat a little what's 
going on at Fort Greely as well. Can you just comment around 
how important what's happening at Fort Greely there overall to 
our defense of our country?
    General Greaves. It is extremely important, and the fact 
that we are increasing our capacity as well as our capability 
with the additional 20 GBIs that's going into Missile Field 4. 
Not only are we going from 44 GBIs to 64, but those GBIs will 
be tipped with the higher reliability RKVs, and that will be a 
significant enhancement to our GMD capability.

                      SPACE-BASED MISSILE DEFENSE

    Senator Daines. Well, just shifting gears, while certainly 
as rogue states post the most imminent risk, peer competitors, 
such as Russia, are testing the United States' mettle by openly 
violating weapons treaty obligations and flaunting new 
technologies designed to evade U.S. air defense systems. Given 
Putin's recent claims of an operational hypersonic cruise 
missile, how will this budget advance the fielding of space-
based sensors and interceptors?
    General Greaves. This budget will allow us to continue the 
discussion of the need for space-based sensors and hopefully 
get to a decision very quickly on requesting the funding to 
make that a reality. As far as Mr. Putin's comments, those are 
alarming. Those have caused us to provide additional emphasis 
on the capability we need to defend against such things as he 
mentioned, the hypersonic threat.

                            REGIONAL DEFENSE

    Senator Daines. As I mentioned, just the week before last I 
led my third annual CODEL to China, where I lived and worked 
actually for nearly 6 years in the private sector back in the 
1990s. Many of my colleagues are often surprised by the pace of 
innovation and technology in China, which rivals our own here 
in the United States. We should not underestimate how this 
innovation is being applied to the modernization of China's 
nuclear arsenal.
    General, are the U.S. missile defenses in disputed 
territories, such as the South China Sea, adequate to defend 
our global interests and assure our regional allies?
    General Greaves. Mr. Senator, the answer is yes for today's 
threat. And as we look at the alarming rate of modernization in 
countries such as China and the resources that they're applying 
to improving their offensive capability, we will need to 
improve our defensive capability to provide that offset, that 
confidence that we can defend against that capability, not 
necessarily in the numbers coming out of China, that's not what 
we're set up to go do, but that technology and capability, as I 
call it, leaking into or being used or being provided to these 
other rogue nations.

                             CYBERSECURITY

    Senator Daines. And building on my colleague Senator Reed's 
earlier question, cyber has become a central mission to China, 
for China, to advance its own interests around the world. How 
are you defending current missile defense systems against 
China's threat and building resiliency into emerging 
capabilities?
    General Greaves. Mr. Senator, through beginning with the 
design, but most importantly, for the systems that we've got 
deployed today, the cooperative vulnerability penetration 
assessments as well as adversarial assessments, getting our own 
red teams, not only within the Missile Defense Agency, but from 
outside the Missile Defense Agency, to assess the capability of 
our systems to defend themselves or to be resistant or 
preventing intrusions. So that's a very serious area for us.
    Senator Daines. Thank you, General.
    Thank you, Mr. Chairman.
    Senator Shelby. Senator Collins.

                           HYPERSONIC THREAT

    Senator Collins. Thank you very much, Mr. Chairman.
    General, yesterday when we talked in my office, we 
discussed the development of hypersonic missile technology by 
China and Russia. Today I would like to ask you another 
question about that, and that is, what do you assess as the 
risk of this technology proliferating to countries like North 
Korea or Iran?
    General Greaves. Senator Collins, I assess that risk as 
extremely high. I don't see what will prevent it from 
happening, and that is why with my boss, Dr. Mike Griffin, I 
believe that the hypersonic threat is something that we need to 
address expediently, and it's the primary reason driving our 
thoughts on the need to move our sensor--our sensor capability 
to space to work with the ground sensors to help mitigate that 
threat. So it's a very serious threat.

                      ROGUE NATION THREAT PRIORITY

    Senator Collins. How much should we orient our missile 
defense systems toward North Korea and Iran at the expense of 
focusing our efforts toward more capable threats, such as 
Russia and China? How do we weigh where we put our resources 
given the number of serious threats that we face?
    General Greaves. Yes, Senator. That specific question is 
being debated and discussed and integrated into the ongoing 
Missile Defense Review, and those results from that review will 
shape the priority and the answer to the priority question that 
you're asking. I would say that solely based on demonstrated 
performance from those two--those two countries, Russia and 
China, it will absolutely drive a significant look at those 
capabilities and the risk of proliferating those capabilities 
into rogue nations.
    And so as a minimum, we will be--we will need to address 
that technology and that capability even if we're looking 
solely at the classic North Korea and Iran threat. But 
depending on what's produced or guidance, direction, policy 
changes, that come out of the Missile Defense Review, that 
can--that can expand.

                            ISRAELI PROGRAMS

    Senator Collins. And finally, we also talked about the 
success of the Iron Dome program that has helped to protect so 
many Israeli citizens from missile attacks. What do you see as 
other opportunities to increase our missile defense cooperation 
with Israel building on the success of Iron Dome, Arrow, and 
David's Sling?
    General Greaves. Senator Collins, I absolutely believe that 
we should be assessing the integration of those capabilities 
where possible, where feasible, to either augment or if they 
are a better capability, make decisions on whether or not we 
should integrate them wholly into our--into our Ballistic 
Missile Defense System.
    You know, as I walked around Tel Aviv and other places 
within the last 3 to 4 months, that threat is real. They live 
with that every day. It's something that I think the closest 
we've come to it recently is the unfortunate incident on Hawaii 
where it was not a real threat, but it felt like it for 38 
minutes. And they live with that every single day, and they are 
very aggressive on their technology development, their test 
approach. They test, fail, fail, fail, test, success, move on, 
which I think is something that will benefit us as we look at 
how we approach fielding our systems. So yes.
    Senator Collins. Thank you.
    Mr. Chairman, I know that it's already been asked about the 
eastern site for missile defense, and I just want to weigh in 
that that's obviously important that we protect the entire 
country.
    Thank you.
    Senator Shelby. Senator Murkowski.

                          ALASKA AND THE BMDS

    Senator Murkowski. Thank you, Mr. Chairman. And Mr. 
Chairman, I want to congratulate you. I look forward to working 
with you as you ably lead this very important Appropriations 
Committee. So I'm looking forward to that.
    Senator Shelby. I look forward to working with all of the 
members.
    Senator Murkowski. Thank you. Thank you.
    And General, thank you. I appreciated our conversation 
yesterday, and a little bit of a precursor talking about some 
of the initiatives that the Agency has up in Alaska that are 
providing not only for that robust defense from places like 
North Korea, Iran, but also making sure that we've got 
everybody covered. And I think that whether you're in Alaska or 
you're in Maine or parts in between, we want to make sure that 
we're covered here.
    I had an opportunity over this past work recess to be out 
in Kwajalein and see our assets that we have placed there that 
are on the other end. We've got Alaska up to the north and then 
down in the middle of just an awful lot of water out there, the 
facilities there at Kwajalein that allow us to do the level of 
testing that we need to do for our missile defense. It was 
very, very important to see and to be able to kind of put all 
those pieces together.
    But I appreciate the administration and their focus on what 
we are doing within the fiscal year 2019 MilCon as it relates 
to Fort Greely and the expansion there with the missile fields 
and making sure that we not only have robust assets there that 
are in the ground, but making sure that we're able to ensure 
that we're able to maintain additional silos, that we're able 
to keep the required 44 operational. And so the effort to 
increase GBI availability through additional assets I think is 
important, and we're certainly supportive of that, as we are 
with all the efforts that are underway with the Long Range 
Discrimination Radar out there in Clear, with its ability to 
really be the eyes, the sensors, in terms of understanding what 
may or may not be coming at us from the threat.
    I think we are keenly aware in Alaska, with our geography, 
that with regards to recent events in North Korea, the rising 
tension with Russia, to make sure that we are amply prepared is 
a national security priority, and the focus that has been 
placed in ensuring that we place this priority is significant 
and again appreciated.
    So I guess, General, I would ask you this morning to just 
share briefly a synopsis of the capabilities that you believe 
that the Long Range Discrimination Radar site in Alaska, along 
with what we have in place at Greely, and what we are building 
out, what it provides to the defense of the Nation, because I 
think for colleagues, such as Senator Collins, who wants to 
make sure that there is a level of protection, I think it's 
important that we understand that we have expanded, and I think 
appropriately expanded, our defense in these areas. So if you 
could just quickly address that, I'd appreciate it.
    General Greaves. Senator Murkowski, thanks, thanks for the 
question. And let me frame the response in terms of the 
priorities we've got within the Agency, the top priority being 
to increase the reliability of the systems we've got, we have 
employed today, to include the GMD system, as an example, 
Ground-based Midcourse Defense. So increasing reliability, 
building confidence in the warfighter, those systems will work.
    The second priority is increasing our capacity and 
capability. So the additional 20 GBIs going into the ground in 
Missile Field 4 at Fort Greely that expands the arrows in the 
quiver, we call it, as well as they will be tipped with the 
more reliable kill vehicle, the RKV, to increase our 
capability.
    As far as the radar at Clear, that will be a tremendously 
important asset for us because what it does, it provide--it 
will provide what we call midcourse discrimination as well as 
tracking. And the goal is to make the job as easy as we can 
make it on the kill vehicle so it has less chaff and 
countermeasures to try to discern on its own. And the more we 
can do that during the flight of the threat missiles towards 
the target, the easier it is, and the higher confidence we'll 
have in intercepting the threat vehicle.

                            MDA ORGANIZATION

    So the LRDR will be looking far out to execute both of 
those very important missions, the tracking mission, and most 
important, the discrimination mission. Plus we hope that we're 
not doing that mission too often, but it will be there when 
ready, but when it's not executing a ballistic missile defense 
mission, it is a magnificent--will be a magnificent asset to do 
space situational awareness for the United States Air Force as 
part of their mission. So it will have dual mission 
capabilities, the primary mission being ballistic missile 
defense and secondary mission to support SSA for the Air Force.
    Senator Murkowski. Very important. I think we recognize 
that the Missile Defense Agency has been--has been tasked with 
not only an extraordinarily important mission of defense of the 
Nation, we are asking you to do things quickly, moving in a 
direction that anticipates what the next threat will be, and in 
doing so, we've entrusted you with a fair amount of taxpayer 
dollars to do what you feel is important to the authorities 
within your Agency.
    With regards to the priorities of the organizational 
structure and your ability to effectively meet the mission with 
the dollars that you have been given, are you comfortable with 
your ability to carry out these responsibilities to utilize the 
significant influx of funding that you're seeing to help you do 
this? Operationally, are you satisfied with where you are? Do 
you foresee any changes?
    General Greaves. Thank you, Senator. The answer is based on 
the organizational construct laid out in DOD Directive 5134.09, 
that's where it lays out my responsibilities, my authorities, 
and my accountability as well as the remainder of the 
Department. I will say that the Missile Defense Agency is built 
to do exactly what you're concerned about and the questions 
you're asking. It's built for speed, it's built for rapid 
decision making, in positions of authority that have the 
requisite experience to make those decisions.
    So my concern today is the interface with the remainder of 
the Department to ensure they can operate at the speed that we 
can operate to deliver the capability that this Nation needs in 
the timeframe that it needs it. I will tell you I am very 
encouraged with both Ms. Lord as the A&B and Dr. Mike Griffin 
as the new R&E in what they have stated as far as their 
priorities to ensure that--and the Deputy Secretary of Defense 
actually--looking at where the bureaucracy is in the 
Department, to weed it out and streamline it so that we can 
make these decisions and make it by--make the decisions with 
people who know what the heck they're doing.
    Not everyone gets a vote, but the bureaucracy, from my 35-
plus years of experience within the Department, there are a 
number of entities within the Department that think that they 
get a vote every time we need to make a decision. But I am very 
encouraged with the authorities I've got today, the 
responsibility I've got today, the accountability that I've got 
that I'm responsible for today, with the leadership that 
exists, that we're going to drive that out, and that will be 
the key, I believe, to ensuring that we follow the processes 
we've got in place.
    We've got some very robust processes. I mentioned yesterday 
the fact that the $2 billion that was in the budget amendment, 
we are tracking the--I am tracking the obligation execution of 
those dollars as a minimum on a weekly basis, if not a daily 
basis, to ensure that we remain credible with you all on the 
funding that you've provided that we are actually providing 
capability with that funding.
    So we've got the processes in place, we just need to 
execute it, and we need to move the chaff out of the way and 
trust the folks who have been placed in positions of authority 
that make the decisions, and move out. I hope that answers the 
question.
    Senator Murkowski. It does, and I thank you for that. And I 
know that we all look forward to working with you to accomplish 
this mission.
    Thank you, Mr. Chairman.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Shelby. Thank you.
    General, we appreciate your appearance here today, your 
candor with us. And we look forward to working with you. Some 
of the Senators are in other committees today, but they might 
have additional questions for you, and I would request you 
respond to them, as you always have, in a reasonable timeframe, 
maybe 30 days or so.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
               Questions Submitted by Senator Jerry Moran
                  mda requirements for launch services
    Question. Lt Gen Greaves, you have indicated that the Missile 
Defense Agency (MDA) would not be in the business of contracting launch 
services. Instead, you will rely on the U.S. Air Force's Evolved 
Expendable Launch Vehicle (EELV) program. The increasing threat of new 
ballistic missiles technologies such as hypersonic missiles is driving 
the necessity to establish a network space based sensors capable of 
tracking a threat throughout the duration of its flight.
    Given the demand to build, test, and maintain such a robust 
network, what will the MDA require from the EELV program for launch 
services in the coming years, both in terms of quantity of launches and 
types of launches? Will these new missions require or drive a change in 
the manner in which MDA requests launches? What capabilities will MDA 
prioritize in these requests for these launch services? What current 
obstacles exist that may prove to be a hindrance access to launch 
services to build this network?
    Answers. The MDA is considering multiple concept proposals from 
industry for the Missile Defense Tracking System (MTS) Spiral 0 
operational prototype, each of which calls for a different launch 
campaign.
    None of the industry concepts suggests that MDA should consider 
changing the standard U.S. Air Force launch request process.
    The MDA will prioritize launch service requests for the MTS Spiral 
0 to ensure that sensors are delivered to orbit so that the initial 
prototype provides continuous, stereo coverage of the threat launch 
areas associated with the highest priority, emerging threat systems.
    There are no obstacles related to the launch aspect of the MTS 
Spiral 0 operational prototype project.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed
                       replace ce-1 kill vehicles
    Question. I understand you have a plan to replace the oldest and 
least reliable kill vehicles (CE-Is), but because of the effort to add 
20 more GBIs, the removal of the CE-Is will not be complete until 
fiscal year 26, 2 years later than originally planned. Is there a way 
to replace these sooner, rather than put all of the first RKVs in the 
ground as new all-up-rounds?
    Answer. (FOUO) The only way to obtain an overall Ground-based 
Interceptor (GBI) inventory of 64 by 2023 is to delay replacing the CE-
I Kill Vehicles (KVs). GBI production capacity is currently limited to 
approximately 12 GBIs per year. The Missile Defense Agency (MDA) has 
prioritized using this capacity to deliver the 20 new GBIs mandated 
under the Missile Defeat and Defense (MDDE) by 2023. Once the MDDE GBIs 
are delivered, MDA will begin replacement of 19 CE-I Kill Vehicles with 
Redesigned Kill Vehicles (RKVs) and complete these replacements in 
2025. The MDA will also replace 16 CE-II KVs with RKVs by the end of 
2026. The MDA has prioritized new deliveries ahead of Exoatmospheric 
Kill Vehicle (EKV) CE-I & II replacements because it adds capability, 
increases overall GBI fleet reliability and builds toward an overall 64 
GBI inventory for the Warfighter faster than putting the EKVs ahead of 
new interceptors.
                                 ______
                                 
              Questions Submitted by Senator Brian Schatz
                     homeland defense radar-pacific
    Question. Missile Defense Agency's (MDA) fiscal year 2019 budget 
includes a request to begin design of another homeland defense radar in 
the Pacific. How will this additional radar contribute to the defense 
of Hawaii and when will it be operational?
    Answer. It is important to note that both the Hawaii Radar and the 
Pacific Radar were requested by the United States Pacific Command and 
United States Northern Command leadership to add capability identified 
in the Global Sensors Analysis of Alternatives, which was completed in 
2016. The Pacific Radar will contribute to the Homeland and Regional 
Defense missions as a part of the Ballistic Missile Defense System 
(BMDS). It will complement the AN/TPY-2 forward based radars by 
extending the forward based BMDS tracking while adding significant 
midcourse discrimination capability. The Pacific Radar's contribution 
of increased continuity on the tracks enables use of advanced 
discrimination techniques. The network of defense discriminating 
sensors will enable more reliable identification of the threat object 
as well as improved lethality for BMDS Interceptors that provide 
defense to include the defense of Hawaii. It will be added to the 
operational capacity baseline within CY 2025.
                      space situational awareness
    Question. Missile Defense Agency's (MDA) fiscal year 2019 budget 
notes that the Pacific-based radars will be designed with ancillary 
missions, including support to Department of Defense's (DoD) mission to 
track space objects. To what extent is MDA coordinating with the U.S. 
Air Force (USAF) to develop the requirements for these ancillary 
capabilities?
    Answer. Large strategic surveillance radars have an inherit Space 
Situational Awareness (SSA) capability. Ballistic Missile Defense 
upgrades to the Early Warning and COBRA DANE radars also enhanced their 
SSA capability. These radars routinely use space object tracking as 
their sensor calibration procedures. When planning the Pacific-based 
radars (Homeland Defense Radar-Hawaii (HDR-H) and Homeland Defense 
Radar-Pacific (HDR-P)), MDA coordinated extensively with USAF and Air 
Force Space Command on their needs for SSA. In August 2017, an initial 
brief was presented to the Ballistic Missile Defense Overarching 
Integrated Product Team that defined threshold and objective SSA 
capabilities desired by the Warfighter. In September 2017, this 
briefing was presented to the MDA Board of Directors, approving the 
recommended SSA path forward. In April 2018, the SSA requirements were 
further matured to include both narrowband and wideband Space Object 
Identification.
    These SSA requirements were then added to the HDR-H statement of 
work. As MDA further refines SSA requirements with USAF, specific 
performance and interface requirements will be added to HDR-H, HDR-P, 
and Long Range Discrimination Radar. Ancillary capabilities for the 
radars to contribute to the SSA mission are cost efficient for both MDA 
and USAF and are integrated and tested at minimal schedule risk.
    Question. Missile Defense Agency's (MDA) fiscal year 2019 budget 
notes that the Pacific-based radars will be designed with ancillary 
missions, including support to Department of Defense's (DoD) mission to 
track space objects. How does MDA expect these radars to help the U.S. 
Air Force's (USAF) ongoing work in Hawaii to track space objects?
    Answer. The Homeland Defense Radar-Hawaii (HDR-H) will fill the 
mid-Pacific radar gap in the Space Surveillance Network; currently 
serviced by optical sensors. The family of MDA long-range 
discrimination radars will offer the Warfighter and National 
Intelligence Agencies the unique capability of 24/7/365 support for 
real-time Narrowband and Wideband Space Object Identification data to 
support critical space events and inform the space order of battle. 
Through MDA's work with the USAF, an initial set of requirements for 
HDR-H and Long Range Discrimination Radar is developed that will 
further evolve as the programs develop.
    Question. Missile Defense Agency's (MDA) fiscal year 2019 budget 
notes that the Pacific-based radars will be designed with ancillary 
missions, including support to Department of Defense's (DoD) mission to 
track space objects. How, if at all, does MDA plan to tie together 
other Pacific-based sensors (Sea-Based X-Band Radar (SBX) and COBRA 
DANE, for example) to enhance Space Situational Awareness (SSA)? Please 
describe in detail any plans.
    Answer. The addition of Pacific-based radars is in accordance with 
the Ballistic Missile Defense System (BMDS) architecture, which has 
been designed to achieve a persistent, distributed network of sensors 
combined with a layered defensive weapon capability against all phases 
of enemy missile flight. These Pacific-based radars have a primary BMD 
mission, but have the capability of performing space surveillance on a 
non-interference basis. For Long Range Discrimination Radar (LRDR) and 
Homeland Defense Radars (HDR-Hawaii and HDR-Pacific), data will be 
published to the SSA community through network interfaces developed for 
the Command and Control, Battle Management and Communications (C2BMC) 
element of the BMDS. These data flow in a prescribed way from C2BMC to 
the Space Surveillance Network, and BMDS sensors are defined as 
contributing or collateral sensors to the SSA mission. MDA continues to 
improve the performance of the radars for both missile defense and SSA 
through recurring spiral software upgrades. COBRA DANE has a separate, 
existing connection to the SSA network. A future possible connection by 
SBX to support SSA is under study.
                       ground-based interceptors
    Question. MDA plans to increase the ground-based interceptor force 
from 44 to 64 and upgrade their reliability. How will this improve our 
chances of intercepting a North Korean ICBM?
    Answer. The number of Ground-based Interceptors (GBIs) employed 
during battle is driven primarily by two factors: 1) The number of 
incoming reentry vehicles that are assessed to be threatening the area 
defended by the Ballistic Missile Defense System (BMDS); and 2) The 
number of GBIs needed to eliminate each reentry vehicle with a high 
probability. Therefore, increasing the GBI fleet from 44 to 64 will 
enable the BMDS to engage a larger number of incoming reentry vehicles. 
GBI reliability upgrades will allow the BMDS to eliminate each incoming 
reentry vehicle with fewer GBIs, which further increases the number of 
incoming reentry vehicles that the BMDS can defend against.
    Question. MDA plans to increase the ground-based interceptor force 
from 44 to 64 and upgrade their reliability. How is MDA staying ahead 
of North Korea's ICBM improvements, including development of decoys?
    Answer. The Missile Defense Agency (MDA), in coordination with 
intelligence agencies, assesses the Ballistic Missile Defense System 
(BMDS) performance against the projected threat capabilities and 
identifies any gaps. Trade studies identify the most effective 
solutions to close the gaps, which include increasing the number of 
interceptors, improving their reliability, improving discrimination on 
board the Kill Vehicle and improving coverage and discrimination in the 
sensors supporting the BMDS. Current BMDS development activities 
include the Long Range Discriminating Radar, the Ground-Based Midcourse 
Defense GMD Redesigned Kill Vehicle, the Mid-Term Discrimination 
Program, and BMDS System Track. Collectively, these improvements allow 
the BMDS capabilities to keep pace with the threat by increasing our 
ability to detect the threat, discriminate the lethal object, correlate 
ground sensor data with the kill vehicle and successfully defeat the 
threat, even in the presence of countermeasures.
    Question. MDA plans to increase the ground-based interceptor (GBI) 
force from 44 to 64 and upgrade their reliability. How does your 
timeline for deploying additional, more reliable GBIs take into 
consideration developmental setbacks?
    Answer. (FOUO) The Missile Defense Agency (MDA) will continue our 
rigorous systems engineering approach in the payload and boost vehicle 
development needed to increase the fleet from 44 to 64. While 
developmental setbacks are inevitable in such a complex and cutting 
edge program, MDA will take every opportunity to maintain schedule. 
What we will not do is proceed with procurement decisions in advance of 
reaching the required development gates.

                          SUBCOMMITTEE RECESS

    Senator Shelby. And now the Defense Subcommittee will 
reconvene on Tuesday, April the 17th, at 10:00 a.m., here to 
receive testimony from the National Guard and Reserve 
Leadership.
    This subcommittee now stands in recess.
    [Whereupon, at 11:17 a.m., Wednesday, April 11, the 
subcommittee was recessed, to reconvene at 10:00 a.m., Tuesday, 
April 17.]


</pre></body></html>
